<html>
<title> - THE IMPACT OF THE EXPANSION OF THE MINNEAPOLIS-ST. PAUL INTERNATIONAL AIRPORT ON THE MINNESOTA VALLEY NATIONAL WILDLIFE REFUGE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 THE IMPACT OF THE EXPANSION OF THE MINNEAPOLIS-ST. PAUL INTERNATIONAL 
        AIRPORT ON THE MINNESOTA VALLEY NATIONAL WILDLIFE REFUGE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                            FEBRUARY 3, 1999

                               __________

                            Serial No. 106-1

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources



                   U.S. GOVERNMENT PRINTING OFFICE
54-564 <l-ar/r-ar>         WASHINGTON : 1999




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH, Idaho               CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   WILLIAM D. DELAHUNT, Massachusetts
JOHN PETERSON, Pennsylvania          CHRIS JOHN, Louisiana
RICK HILL, Montana                   DONNA CHRISTIAN-CHRISTENSEN, 
BOB SCHAFFER, Colorado                   Virgin Islands
JIM GIBBONS, Nevada                  RON KIND, Wisconsin
MARK E. SOUDER, Indiana              JAY INSLEE, Washington
GREG WALDEN, Oregon                  GRACE F. NAPOLITANO, California
DON SHERWOOD, Pennsylvania           TOM UDALL, New Mexico
ROBIN HAYES, North Carolina          MARK UDALL, Colorado
MIKE SIMPSON, Idaho                  JOSEPH CROWLEY, New York
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held February 3, 1999....................................     1

Statement of Members:
    Minge, Hon. David, a Representative in Congress from the 
      State of Minnesota.........................................    17
        Prepared statement of....................................     8
    Ramstad, Hon. Jim, a Representative in Congress from the 
      State of Minnesota.........................................    15
        Prepared statement of....................................    16
    Vento, Hon. Bruce, a Representative in Congress from the 
      State of Minnesota.........................................     3
        Prepared statement of....................................     6
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1

Statement of Witnesses:
    Ashe, Dan, Assistant Director for Refuges and Wildlife, U.S. 
      Fish and Wildlife Service, Washington, DC accompanied by 
      Richard Schultz, Refuge Manager, Minnesota Valley National 
      Wildlife Refuge............................................    20
        Prepared statement of....................................    44
        Response to questions from the Committee.................    88
        Response to questions from the Committee.................   108
    French, Nelson, Executive Director, Friends of the Minnesota 
      Valley, Bloomington, Minnesota.............................    25
        Prepared statement of....................................    49
    Grams, Hon. Rod, a United States Senator from the State of 
      Minnesota..................................................    10
        Prepared statement of....................................    13
    Marzulla, Nancie, Defenders of Property Rights, Washington, 
      DC.........................................................    24
        Prepared statement of....................................    60
    Pickard, Lynne, Manager of Community and Environmental Needs 
      Division, Federal Aviation Administration, Washington, DC..    22
        Prepared statement of....................................    46
    Walsh, Mary U., Asst. Chief Counsel for Legislation, Dept. of 
      Transportation, response to questions from the Committee...   111

Additional material supplied:
    Committee on Resources, Memo from............................    70
    Hartwig, William F., Regional Director, Dept. of the 
      Interior, statement by.....................................    82


OVERSIGHT HEARING ON THE IMPACT OF THE EXPANSION OF THE MINNEAPOLIS-ST. 
 PAUL INTERNATIONAL AIRPORT ON THE MINNESOTA VALLEY NATIONAL WILDLIFE 
                                 REFUGE

                              ----------                              


                      WEDNESDAY, FEBRUARY 3, 1999

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to other business, at 11:22 
a.m., in Room 1324, Longworth House Office Building, Hon. Don 
Young, [chairman of the Committee] presiding.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. The hearing will come to order. The purpose of 
this hearing today is to take testimony on the impacts of an 
airport expansion on one of our premier national refuges, the 
Minnesota Valley National Wildlife Refuge.
    The refuge is home to a broad range of wildlife species 
which deserve every bit as much protection as do the species 
that live in other national refuges, including in Alaska 
refuges such as the Arctic National Wildlife Refuge and Izembek 
National Wildlife Refuge. Species living in this refuge include 
threatened bald eagles, 35 mammal species, 23 reptile and 
amphibian species, 97 species of birds, including the tundra 
swans, migrating all the way from Alaska.
    The new runway expansion will cause so much noise and 
disturbance that most of the facilities under the path of the 
runway will be relocated. In fact, the refuge will be so 
impacted by the noise that the FAA has agreed to pay the Fish 
and Wildlife Service over $20 million to compensate them for 
taking of their property by virtue of noise.
    Yet, with this level of disturbance, the Fish and Wildlife 
Service and the FAA found that wildlife would not be disturbed 
so much that the airport expansion should be stopped. They also 
found no impact on the threatened bald eagle and no need for 
the protection of the Endangered Species Act in this case. They 
found that the wildlife in the refuge will adjust to the noise. 
They found that there is little significant evidence that 
wildlife will be seriously harmed by the 5,000 take-offs and 
landings per month at less than 2,000 feet above those 
important migratory bird breeding and resting areas.
    I'm not surprised by that. Most of us know that wildlife 
adjust to human presence and in some cases actually thrive, and 
I have an example of this.
    This is my little caribou herd around the wells that have 
been drilled in the terrible dastardly deeds of the oil 
companies, and are migrating and living there very happily, 
scratching their backs on the pipeline, resting their tired, 
weary souls under the derricks that exist there. I mean, this 
is an example of how animals can adjust.
    Most of us know that wildlife adjusts to human presence, 
and in some cases actually thrive. Fairfax County, abundant 
deer and bird and fox population can attest to that with all 
the building around. We've got more deer and everything else 
than we've ever had before.
    Certainly I would agree that airports must be safe and that 
human life and safety come first. However, how many times have 
the members of this Committee been told by the Clinton 
Administration that important safety projects cannot go forward 
because it might--and I stress might--impact wildlife. This 
constant excuse has been used many times in Alaska to oppose 
vital public safety and health projects.
    Mr. Pombo and Mr. Doolittle have heard that in connection 
with their efforts to get vital flood control improvements 
needed for the safety of their constituents in California, 
where we had to save the Blue beetle or the Elderberry beetle.
    I know, in fact, that wildlife and human beings can co-
exist. In the coastal plain of Alaska, just like I've shown, 
the caribou have increased, the ducks have increased. I'm 
showing that picture around to show you they can co-exist. Yet, 
some members of this Congress, including some in this room and 
that are going to testify later, have agreed to this airport 
expansion in Minnesota--have introduced legislation that would 
preclude most human activities in the Arctic National Wildlife 
Range by designating it as wilderness.
    I guess they believe that wildlife in Alaska can't adjust 
to human activities, but they can adjust in Minnesota, and I'm 
really saddened by that because we've probably put more money 
into our wildlife than any other State. But apparently that 
wildlife in Minnesota is a lot smarter, and I can't understand 
that at all. In addition, the Airport Commission, by taxing 
passengers flying through Minneapolis, will pay over $20 
million in compensation for the lost use of refuge lands.
    The Fifth Amendment of the Constitution protects private 
property when it must be used by the public. This 
administration has consistently threatened to veto every bill 
that has been introduced that would reduce the burden on 
private property owners when they attempt to seek compensation 
for their lost property from the U.S. Government. They have 
made the process so expensive, so time consuming, so lengthy, 
and so difficult, that only the wealthiest land owners can have 
any hope of attaining the compensation guaranteed under the 
Fifth Amendment.
    Yet the Fish and Wildlife Service demanded and received 
compensation for the impacts on the people who use the refuge 
without having to file a lawsuit or even threaten a lawsuit. 
They demanded compensation and got it. I guess I should not be 
shocked at anything by this administration, especially their 
hypocrisy.
    As you know, I support our refuges. I've introduced a 
refuge bill that was signed into law. I have probably sponsored 
more refuges laws, and I've worked with the refuge system. I 
want refuges to be places where wildlife can thrive, and I want 
them to be accessible to the public. I support adequate funding 
for the refuges. I agree that refuges and wildlife should not 
be used to stop needed projects and development in nearby 
communities, but there is a double standard here, my friends. 
When I can't build a road that saves lives--and to my knowledge 
there have been no lives lost in this Minnesota airport--yet I 
have lost 11 lives because this Congress and certain Members of 
this Congress, especially from the delegations in Minnesota, 
want to have a wildlife refuge inviolate.
    There's something wrong with that. There's a double 
standard within the Fish and Wildlife Department, there's a 
double standard within the Members of Congress that don't see 
that they parallel and track one another. There is the ability 
to be compatible if we work together. But when you exclude and 
put wildlife ahead of the safety of people, you are doing great 
damage to, I think, to the system of Congress and the system of 
fairness.
    I have asked Fish and Wildlife to be fair, and, frankly, to 
stop discriminating against the rural people of America. It 
seems it's all right if it's close to a large metropolitan area 
and you've got the horse power, but when it's a small, little 
town and there are only 300 people, they are not important. I 
don't like the double standard, and before this is over we're 
going to have lots of fun with this issue, especially with the 
Fish and Wildlife.
    As a Member of Congress I can understand. I don't agree 
with it, I don't like it, but I can understand it. That Fish 
and Wildlife has this double standard is wrong, it's immoral, 
and it is corrupt.
    [The prepared statement of Mr. Young follows:]
    The Chairman.
    I recognize Mr. Vento.

  STATEMENT OF HON. BRUCE VENTO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Vento. Well, I thank the Chairman for holding the 
hearing and for drawing together the Minnesota delegation in 
support of this support of this wildlife refuge, Mr. Chairman. 
And I would just point out on the basis of the Chairman's 
remarks--he's got a lot of questions, and I think we have the 
answers for them, and I think that this is not comparable to 
some of the examples that were cited with regards to the impact 
on wildlife and the reasons for the compensation that was and 
is provided here. Not one single acre of this wildlife refuge 
is touched on the ground by this. This is the issue of an 
aircraft overflight issue and a flight path over the sight.
    In fact, when this particular refuge was designated in 
1976, it specifically had provisions that said it would not 
impact the surrounding economic development. Beyond that, I 
would point out that not only did they work very hard to come 
to an agreement here--and I appreciate the Fish and Wildlife 
Service work, the FAA, and the Metropolitan Airports Commission 
in Minnesota, the work they did. They did a good job, but they 
also--in terms of this compensation--but the Metropolitan 
Airports Commission has already paid out $100 million to, in 
fact, sound-proof homes in the flight path in Minnesota. And 
when they get done, they are going to spend about $300 million 
to sound-proof the homes.
    And the compensation being offered here--the mitigation 
results--something in excess of $20 million--has really little 
to do with the impact on the wildlife because that is very, 
very difficult to document. It has to do with the center, the 
significant center that has been built there that is used for 
interpretation and education in that area.
    And I might add, Mr. Chairman, that I have a little 
experience with this particular airport because as a junior 
high school teacher about 22 years ago, I taught directly under 
the flight path of the Metropolitan Airport, the international 
airport, and I can attest to the fact that it is very 
difficult, even with my somewhat modest voice, to in fact 
convey the various cognitive notions that I was trying to 
convey to those junior high school students.
    Now I know I don't have any such problem here this morning, 
but I can assure you when the flights go over it is very 
difficult, so it really means that the center that has been 
developed here and the resources that have been developed here 
will probably, in all probability, have to be moved to other 
sites to augment this. And we have, literally, tens of 
thousands of students, of individuals, that visit this 
particular center each year, and it's been of tremendous value.
    The agreement, of course, is the culmination of over two 
years of negotiations. It's a symbiotic relationship between 
all of those that have been involved. The Federal Government 
recognized the difficulties associated with creating a refuge 
in an urban environment, and we, in fact, responded to that by 
limiting it in law.
    Beyond that, of course, we have, within law, under the 
transportation law, the 4(f) provisions. Whenever a 
transportation project, whether it's a road, airport expansion, 
or others, they need to, of course, work with the other Federal 
resources and entities and land managers in that area.
    And beyond that, Mr. Chairman, in the re-framed Fish and 
Wildlife law that you helped write, that you structured and 
passed through Congress--a compromise--you, in fact, made 
special efforts to try and limit the ability of the Fish and 
Wildlife Service in the designation process to limit them as to 
any rights that they would have as to issues that are trans-
boundary. That's what you did in that particular law. I don't 
think I agree with it.
    In fact, what my view is, I think that we should be looking 
to land managers in most conservation units, whether they're 
parks, whether they're wildlife refuges or others, to be 
working on a trans-boundary issue with the other entities.
    I mean, it's like the Everglades in Florida and the 
sheetflow that goes into the Everglades. We have to have an 
expectation that they're going to be working with the Corps of 
Engineers, with the Florida conversation districts, because of 
course what happens in terms of that sheetflow dramatically and 
significantly impacts the type of--what happens in the 
Everglades, and so we need to expect land managers to be 
outside the box, to be outside their boundaries, to be voicing 
their concerns, to be representing the resources and the 
concerns that they have in the forums, in the States, as 
partnerships with the States, with the local governments and 
others--certainly other Federal agencies that are involved. And 
that is the expectation that we should mandate of Federal land 
managers so that they are part of the solution rather than 
simply standing off and entering these things and being 
involved in simply court cases.
    Now, if it's overflight issues that you're concerned about, 
I think that the record will show that this Committee has had 
an aggressive posture with regards to the protection and 
addressing the issues of overflights over parks, over 
wilderness, over range lands.
    In fact, I think we need a better policy in terms of the 
reservation of air space that takes place on the part of our 
military. Increasingly, they are, in fact, taking over more and 
more air space in the western part of the United States, albeit 
for justifiable reasons in their minds' eye. But I think it's 
very limiting in terms of what it means, in terms of the use of 
the land on the surface and what the impact is on grazing, what 
the impact is on recreation.
    So we've got a long way to go in terms of addressing this, 
and I'm pleased to see the Fish and Wildlife Service in the 
area I represent pursuing this. And I certainly welcome Mr. 
Schultz, who is here, and the other witnesses: Mr. French from 
Minnesota, who works with the Friends of the Minnesota Valley 
Wildlife Refuge. They've done an excellent job, as well as the 
administrators with the FAA and the Metropolitan Airports 
Commission, and I hope we can get to some of those questions 
you raised, Mr. Chairman.
    [The prepared statement of Mr. Vento follows:]
    [GRAPHIC] [TIFF OMITTED] T4564.001
    
    [GRAPHIC] [TIFF OMITTED] T4564.002
    
    Mr. Young. The gentleman's time has expired. I would just 
like to again remind you--I just read your website. It talks 
about how you spoke up, and your members, and stopped this 
criticism of this invasion of this refuge, and then right on 
the same page saying how you're going to take and lock up the 
ANWR area in my State, and it's a refuge, too.
    I mean there is a two double standard here. Another 
gentleman says--Daniel Ashe, Assistant Director of Refuge and 
Wildlife--certainly hate to be in the position of losing any 
aspect of any refuge, but the Minnesota Valley Refuge is an 
urban refuge, where urban encroachment is a fact of life and 
you're going to have to deal with it. Well, what about my small 
towns up north? They are not urban, but they are small 
villages, and there are people there and they're being impacted 
by actions of this Congress, and you have a double standard, 
and that is incorrect.
    I'm going to stress that again. A stabilized standard for 
all refuges should be put forth. If this was an urban refuge, 
it should never have been created as a refuge.
    By the way, I think you had something to do with that.
    Mr. Vento. I did. I only came here in 1977 to help you with 
Alaska.
    Mr. Young. I know. I realize that.
    Mr. Vento. They sent me here. You needed that help.
    [Laughter.]
    Mr. Young. But, again, the reason for this hearing is the 
double standard within the agencies and the Members of 
Congress. If you believe in a representative form of 
government, there has to be some understanding and some belief 
that fairness is equal to justice.
    The first two witnesses: the Honorable Rod Grams of the 
United States Senate--and, boy, if I have kept the Senator 
waiting, I really apologize for that; the Honorable Jim Ramstad 
of the U.S. House of Representatives.
    Mr. Vento. Mr. Chairman, I have Mr. Minge's statement. He's 
involved in an agricultural conference; he's got some serious 
problems with regards to pork and other issues and he has asked 
to have his statement put into the record in support of this 
agreement. Without objection, Mr. Chairman?
    Mr. Young. Well, it's fine with me. I mean, it's his 
district, you know.
    Mr. Vento. Thank you.
    [The prepared statement of Mr. Minge follows:]

 Statement of Hon. David Minge, a Representative in Congress from the 
                           State of Minnesota

    Mr. Chairman and Members of this subcommittee, thank you 
for allowing me the opportunity to speak before this body 
regarding the proposed runway expansion of the Minneapolis/St. 
Paul International Airport and its effects on the Minnesota 
Valley Wildlife Refuge.
    I applaud Chairman Young's obvious concern for the well-
being of the Minnesota Valley Wildlife Refuge and for the 
hundreds of species of plants and animals that inhabit the 
10,000 acres of this wondrous facility. The Resources Committee 
certainly has an obligation to look into any Federal project or 
land transaction that could potentially threaten the full and 
continued operation of a national wildlife refuge, preserve or 
national park.
    But I can assure Mr. Young that this refuge, of which a 
significant portion lies within the boundaries of my 
Congressional District, will see little if any net loss as a 
result of the recently proposed airport expansion/refuge 
mitigation project. Rather, this collaborative effort by the 
Federal Aviation Administration, the U.S. Fish and Wildlife 
Service, the Metropolitan Airport Commission and the Friends of 
the Minnesota Valley should be held up as an example of the 
kinds of innovative solutions that become possible through 
cooperative efforts.
    These types of expansion projects are frequently portrayed 
as a clash between technological progress and conservation 
efforts, between business expansion and natural resources 
preservation, between private and public interests. Yet in this 
instance, a very delicately balanced agreement among between 
diverse interests was reached to accomplish a common goal.
    During my six years in Congress, I have worked closely with 
the Friends of the Minnesota Valley and the U.S. Fish and 
Wildlife Service in their efforts to create and maintain a 
unique conservation and educational facility in the Twin Cities 
suburban area. I have been extremely pleased with the way the 
refuge has been run and with the high quality of educational 
services that it provides for students and adults. The 
opportunity for people from all over the United States to 
enjoy, appreciate and learn about these native species of 
wildlife without significant disruption of the animals' natural 
habitats is a tremendous resource that we cannot afford to 
lose.
    I also recognize the importance of maintaining an effective 
and efficient transportation infrastructure. As a main hub of 
airline transportation, Minneapolis/St. Paul International 
Airport serves not only the citizens of Minnesota but fills a 
role as an important junction point for thousands of other 
travelers who cross the Mississippi River every year. There is 
widespread agreement among state and local leaders in Minnesota 
that an expansion of the existing airport is crucial, given the 
increased demand for services and the potential for greater 
competition among airlines. The only reasonable alternative to 
expansion would be the construction of a new airport, an option 
that many agree would be worse both economically and 
environmentally than expansion.
    I am joined by a bipartisan group of eight other Members of 
the Minnesota Congressional delegation, who believe that the 
proposed airport expansion should be allowed to continue 
without hindrance.
    When the expansion of our society causes a disruption of a 
sensitive environmental area, it is important that we consider 
many important factors to determine the least intrusive means 
available to accomplish the expansion while falling within 
reasonable economic parameters. I believe that the parties 
involved in this project have done this. Their plan calls for 
compensation to the refuge of an amount no less than $20 
million. This funding will allow the refuge to relocate many of 
its outdoor classrooms away from the noise of the runway, and 
it will allow for the replacement of more than 4,000 acres of 
land.
    I sympathize with Chairman Young's frustration at not 
gaining approval for a project in his home state of Alaska that 
he clearly believes is in the best interests of his 
constituents. The derailing of a worthwhile project such as 
this expansion/mitigation plan will have no effect on the 
ultimate passage or defeat of the Alaskan project. The two 
projects are not analogous, they are not related and neither 
project should have any dependence on the other. Each project 
should be discussed and debate on its own merits. In Minnesota, 
the stakeholders, including the ardent environmental advocates, 
have reached an accommodation. I hope that same can occur in 
Alaska.
    In a perfect world, the conflicts between society and the 
environment would not occur. In a perfect world, the 
Minneapolis/St. Paul International Airport would be located in 
an area that does not conflict with the Minnesota Valley 
Wildlife Refuge or any nearby property owners. Certainly, we do 
not live in a perfect world.
    But when both private and public interests, both business 
and environmental advocates, can come together and agree on a 
plan that will benefit millions of consumers, businesspeople 
and nature lovers--and, at the same time, serve the interests 
of economic expansion and progress--we should all take notice.

    Mr. Young. In all due respect for my good Senator, you have 
other things on your mind today and the rest of the week, so 
I'd like to suggest that if you would like to, Senator, go 
forth with this discussion we have about an airport. By the 
way, how did you vote on the Izembek Road?

 STATEMENT OF HON. ROD GRAMS, A UNITED STATES SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Grams. I'll tell you about that.
    Mr. Young. All right.
    [Laughter.]
    I'm very interested. I'm really am very interested. You 
know, this is a long time coming. Go ahead, Senator.
    Senator Grams. All right. Thank you very much. Good 
morning, Mr. Chairman, and also members of the Committee. It's 
great to see you, and I want to thank you for allowing me to be 
a part of this hearing and to provide my testimony.
    And first, Mr. Chairman, I think it's important to point 
out that those of us in the Minnesota delegation approach this 
issue maybe from different angles, but eventually we end up at 
the same point and that is supporting the agreement that you 
are examining here today.
    First, Mr. Chairman, the legislation you introduced last 
year to prevent the implementation of the Minnesota Valley 
National Wildlife Refuge Agreement clearly referenced--and what 
I've heard this morning is your frustration with the 
administration's unwillingness to allow a road through the 
Izembek National Wildlife Refuge in Alaska.
    It comes as no surprise that Members of the Minnesota 
delegation were split on the Izembek road issue, but I want to 
stress that, as a member of the Senate Energy and Natural 
Resources Committee, I voted in support of Senator Murkowski's 
legislation to build that road. Later on the Senate floor, I 
again supported Murkowski and voted in favor of the bill 
because I believe the Members of the Alaska delegation made a 
convincing argument about the health and safety of the citizens 
of King Cove, Alaska.
    Now, Mr. Chairman, I have long been, and always will be, a 
steadfast proponent of access to our natural resources and 
allowing local officials more authority of land use issues. 
I've always felt that the Federal Government exercises too much 
authority over local units of government in virtually all 
matters, but, in particular, with regard to land use decisions.
    And far too often the Federal Government has turned Federal 
lands into playgrounds for the elite and cordoned them off to 
even the most basic of uses, and this problem is only 
exaggerated in States such as Alaska, Utah, Nevada, and Idaho, 
where the Federal Government owns more land than does all the 
citizens of those States combined.
    The King Cove situation is a perfect example of a pervasive 
belief among government bureaucracies that their programs and 
initiatives are more important than the people that they will 
impact, or in this matter the health and the safety of the 
citizens of King Cove.
    Mr. Chairman, my State, too, faces problems with an over-
active Federal Government bent on decreasing access to our 
natural resources and zeroing out timber sales on our national 
forests. This Committee, last year, marked up legislation 
offered by Congressman Oberstar and I to restore access to the 
Boundary Waters Canoe Area. And thanks to the efforts of 
Congressman Oberstar and Vento, a common sense compromise was 
found which I hope settles the portage issue for good.
    But when Members of Congress advocate more local input and 
common sense decisionmaking by the Federal Government, as many 
of us have for so long, they are duty bound to support the 
Federal Government when it acts consistent with that philosophy 
as well. I've always been a strong proponent of bringing the 
Federal Government, the local governments, and the private 
sector together in a non-adversarial way to reach decisions on 
land use and on environmental issues which benefit everyone.
    I believe only the most extreme activists really want to 
block any progress and reject compromise. In fact, I believe we 
must take and make an effort to turn the corner on pitting 
property owners against government and businesses against 
conservationists. It's always been my belief that all 
Republicans share a similar outlook, considering it's a vast 
improvement over the confrontational way in which we seem to 
approach matters involving our Federal lands. And that is why 
all Members of Congress should support the agreement reached on 
the Minnesota Valley National Wildlife Refuge.
    In Minnesota--one of the most environmentally conscious 
States in our country, by the way--all sides came together and 
worked together to reach a solution which will protect the 
wildlife and the health of the refuge well into the 21st 
century and will also allow for the badly needed expansion of 
the Minneapolis-St. Paul Airport.
    Your legislation pointed out that the refuge is unique as 
an urban wildlife refuge in a growing metropolitan area, and 
you were right. When the refuge was created, this fact was not 
missed by Congress. In fact, Public Law 94-466 dedicated one 
section to the understanding that flexibility between the 
refuge's needs and the needs of a growing city would be 
necessary in the future.
    Now let me read for the Committee a portion of section 9 of 
the refuge enabling legislation, and I quote:

    ``Nothing contained in this Act shall be construed as 
prohibiting or preventing the provision of vital public 
services, including the construction, improvement, and 
replacement of highways and bridges or any other activity which 
the Secretary determines to be necessary. Any activity referred 
to in this section shall be carried out so as to minimize the 
disruption of wildlife and the reduction of recreational and 
scenic values of the area.''
    Now, Mr. Chairman, I submit to you that the U.S. Fish and 
Wildlife Service did more than comply with this law--they 
followed it to the letter. And too often we quarrel about 
Federal agencies that interpret laws their way and that ignore 
the intent of Congress. But, clearly, both the law and the 
intent were met by the agreement and the actions of the Fish 
and Wildlife Service in this case.
    I believe it's important to remind the Committee that the 
agreement does not allow a road to be built into the refuge. In 
fact, the agreement does not allow the expansion of the runway 
to touch one acre of land within the refuge. The agreement is 
aimed at mitigating expected but unmeasurable impacts from the 
noise of overflights on wildlife and on visitor enjoyment.
    As the Committee is aware, the U.S. Fish and Wildlife 
Service cannot exert jurisdiction over the airspace over 
refuges as a result of the National Wildlife Refuge System 
Improvement Act of 1997--I have just a little bit left, Mr. 
Chairman--therefore, organizations like the Friends of the 
Minnesota Valley were left with just two options: either take 
the matter to court or work with the refuge and other parties 
to seek a compromise resolution which benefited everybody. And 
I am proud to say that they chose the latter.
    You will soon hear from Nelson French, who is the executive 
director of the Friends of the Minnesota Valley, and he will 
more clearly explain the give-and-take that took place to reach 
this agreement. But I can tell you that his organization, the 
U.S. Fish and Wildlife Service, the Metropolitan Airports 
Commission, and even the Federal Aviation Administration all 
set their differences aside and forged an agreement based on a 
few primary points.
    First, the agreement will allow for a new runway to be 
built at the Minneapolis-St. Paul International Airport, and 
that some impacts will occur as a result. Second, those impacts 
are to be mitigated by a cash payment, as you mentioned, of not 
less than $20 million. The settlement received from the 
Metropolitan Airports Commission will be spent on projects 
designed to offset or replace refuge land, facilities, and/or 
programs impacted by the runway's construction and future 
operation.
    And third, Mr. Chairman, all parties agree that the 
agreement does provide full compensation to the refuge and that 
nothing in the agreement precludes or limits the Fish and 
Wildlife Service from continuing to appropriately manage refuge 
lands.
    So not only does the agreement preserve every acre of 
refuge land, it will actually expand its acreage and will allow 
it to purchase land within the refuge boundaries. And, further, 
not only will the refuge expand, but its programs and 
facilities may improve and expand as well. This refuge, 
following the agreement, will be a more complete refuge and 
remain one of our Nation's premier urban wildlife preserves.
    Now, Mr. Chairman, I regret that I have to come here this 
morning and defend this agreement with those who took part in 
its creation. The parties to the agreement should be here today 
briefing the Committee and Congress on how they approached a 
very sensitive environmental issue and came out of it with a 
very workable and common sense conclusion. We should be 
congratulating them rather than questioning the wisdom of those 
actions.
    Now I hope the members of the Committee will listen closely 
to what took place in Minnesota, and I hope you will leave the 
hearing today with a new understanding of what actually 
happened and also a new appreciation of the approach that the 
participants chose.
    Mr. Chairman, I'm confident this agreement will stand up to 
scrutiny, and hopefully it will serve as a reminder that local 
interests can solve local problems, not only in Minnesota, but 
in Alaska and in other States as well, with local solutions in 
a way that the Federal Government can and should support.
    So, again, Mr. Chairman, I want to thank you very much, and 
also the members of the Committee, for the opportunity to be 
here today and provide my statement. Thank you very much.
    [The prepared statement of Senator Grams follows:]

Statement of Hon. Rod Grams, a Senator in the Senate from the State of 
                               Minnesota

    Good Morning, Mr. Chairman and members of the Committee. 
Thank you for allowing me to provide my testimony.
    First, I think it is important to point out that all of us 
in the Minnesota delegation approach this issue from different 
angles--but eventually we all end up at the same point and that 
is supporting the agreement you are examining today.
    First, Mr. Chairman, the legislation you introduced last 
year to prevent the implementation of the Minnesota Valley 
National Wildlife Refuge agreement, clearly referenced your 
frustration with the Administration's unwillingness to allow a 
road through the Izembek National Wildlife Refuge in Alaska. It 
comes as no surprise that the Members of the Minnesota 
Delegation were split on the Izembek Road issue. But I want to 
stress that as a Member of the Senate Energy and Natural 
Resources Committee, I voted in support of Senator Murkowski's 
legislation to build that road. Later, on the Senate floor, I 
again supported Senator Murkowski and voted in favor of the 
bill. I believe the Members of the Alaska delegation made a 
convincing argument about the health and safety of the citizens 
of King Cove, Alaska.
    Mr. Chairman, I have long been and always will be a 
steadfast proponent of access to our natural resources and 
allowing local officials more authority over land-use 
decisions. I have always felt the Federal Government exercises 
too much authority over local units of government in virtually 
all matters--but in particular with regard to land use 
decisions. Far too often, the Federal Government has turned 
Federal lands into playgrounds for the elite and cordoned them 
off to even the most basic uses. And this problem is only 
exaggerated in states such as Alaska, Utah, Nevada, and Idaho, 
where the Federal Government owns more land than do all of the 
citizens of those states combined. The King Cove situation is a 
perfect example of a pervasive belief in government 
bureaucracies that their programs and initiatives are more 
important than the people they will impact--or in this matter, 
the health and safety of the citizens of King Cove.
    My state, too, faces problems with an overactive Federal 
Government bent on decreasing access to our natural resources 
and zeroing out timber sales on our National Forests. This 
Committee, last year, marked up legislation offered by 
Congressman Oberstar and I to restore access to the Boundary 
Waters Canoe Area. And thanks to the efforts of Congressmen 
Oberstar and Vento, a common-sense compromise was found which I 
hope settles the portage issue for good.
    But when Members of Congress advocate more local input and 
common sense decision-making by the Federal Government, as many 
of us have for so long, they are duty bound to support the 
Federal Government when it acts consistent with that 
philosophy. I have also always been a strong proponent of 
bringing the Federal Government, local governments, and the 
private sector together in a non-adversarial way to reach 
decisions on land-use and environmental issues which benefit 
everyone. I believe only the most extreme activists really want 
to block any progress and reject compromise. In fact, I believe 
we must make an effort to turn the corner on pitting property 
owners against government, and businesses against 
conservationists. It has always been my belief that all 
Republicans shared a similar outlook, considering it a vast 
improvement over the confrontational way in which we seem to 
approach matters involving Federal lands.
    That is why all Members of Congress should support the 
agreement reached on the Minnesota Valley National Wildlife 
Refuge. In Minnesota, one of the most environmentally conscious 
states in our country, all sides came together and reached a 
solution which will protect the wildlife and health of the 
Refuge well into the 21st century and will allow for the badly 
needed expansion of the Minneapolis-St. Paul Airport
    Your legislation pointed out that the Refuge is unique as 
an urban wildlife refuge in the middle of a growing 
metropolitan area--and you are right. When the Refuge was 
created, this fact was not missed by Congress. In fact, Public 
Law 94-466 dedicated one section to the understanding that 
flexibility between the Refuge's needs and the needs of a 
growing city would be necessary in the future. Let me read for 
the Committee a portion of Section 9 of the Refuge's enabling 
legislation:

        ``Nothing contained in this Act shall be construed as 
        prohibiting or preventing the provision of vital public 
        services, including . . . the construction, improvement, and 
        replacement of highways and bridges . . . or any other activity 
        which the Secretary determines to be necessary. Any activity 
        referred to in this section shall be carried out so as to 
        minimize the disruption of the wildlife and the reduction of 
        recreational and scenic values of the area.''
    Mr. Chairman, I submit to you that the U.S. Fish and Wildlife 
Service did more than comply with this law--they followed it to the 
letter. Too often, we quarrel about Federal agencies that interpret 
laws their way, and ignore the intent of Congress. Clearly, both the 
law and the intent were met by the agreement and the actions of Fish 
and Wildlife Service.
    I believe it is important to remind the Committee that the 
agreement does not allow a road to be built in the Refuge. In fact, the 
agreement does not allow the expansion of the runway to touch one acre 
of land within the refuge. The agreement is aimed at mitigating 
expected--but unmeasurable--impacts from the noise of overflights on 
wildlife and on visitor enjoyment. As the Committee is aware, the U S. 
Fish and Wildlife Service cannot exert jurisdiction over the airspace 
over refuges as a result of the National Wildlife Refuge System 
Improvement Act of 1997. Therefore, organizations like the Friends of 
the Minnesota Valley were left with two options--either take the matter 
to court or work with the Refuge and other parties to seek a compromise 
resolution which benefited everyone. I am proud to say they chose the 
latter.
    You will soon hear from Nelson French, Executive Director of the 
Friends of the Minnesota Valley. He will more clearly explain the give 
and take that took place to reach this agreement--but I can tell you 
that his organization, the U.S. Fish and Wildlife Service, the 
Metropolitan Airports Commission and even the Federal Aviation 
Administration, all set their differences aside and forged an agreement 
based on a few primary points.
    First: The agreement will allow for a new runway to be built at the 
Minneapolis/St. Paul International Airport, and that some impacts will 
occur as a result.
    Second: Those impacts are to be mitigated by a cash payment of not 
less than $20 million. The settlement received from the Metropolitan 
Airports Commission will be spent on projects designed to offset or 
replace Refuge land, facilities, and/or programs impacted by the 
runway's construction and operation.
    Third: All parties agreed that the agreement does provide full 
compensation to the Refuge and that nothing in the agreement precludes 
or limits the Fish and Wildlife Service from continuing to 
appropriately manage Refuge lands.
    So, not only does the agreement preserve every acre of Refuge land, 
it will actually expand its acreage and allow it to purchase land 
within the Refuge's boundaries. Further: not only will the Refuge 
expand, but its programs and facilities may improve and expand as well. 
This Refuge, following the agreement, will be a more complete Refuge 
and remain one of our Nation's premiere urban wildlife preserves.
    I regret that I have to come here this morning and defend this 
agreement and those who took part in its creation. The parties to the 
agreement should be here today brieflng the Committee and Congress on 
how they approached a sensitive environmental issue and came out of it 
with a workable, common-sense conclusion. We should be congratulating 
them, rather than questioning the wisdom of their actions.
    I hope the Members of the Committee will listen closely to what 
took place in Minnesota. I hope you will leave the hearing today with a 
new understanding of what actually happened and a new appreciation for 
the approach the participants chose. I am confident that this agreement 
will stand up to scrutiny and serve as a reminder that local interests 
can solve local problems with local solutions--in a way the Federal 
Government can support.
    Again, Mr. Chairman, I thank you and the Members of the Committee 
for the opportunity to be with you today

    Mr. Young. Thank you, Senator, and I do compliment you. I 
know how you voted on it. I checked it before you got to the 
table.
    Senator Grams. Thank you.
    Mr. Young. And I do appreciate your comment about--and 
again, why I'm disturbed is that, you know, you have a larger 
State. You have a lot more people involved, and there is a 
double standard here. There was never an attempt by Fish and 
Wildlife on the local or the Federal level ever to reach a 
compromise with this Congressman on the Izembeck Road, and they 
never, ever, ever could prove the facts that they were putting 
forth. They were all fictitious. The propaganda that came out 
of many of the Congressmen and the other organizations that 
oppose the Izembek Road disallowed the safety factor for those 
people. And just because there are only 300 and you've got 3 
million, I think that's very inappropriate, and I want to 
stress that again.
    I do thank you, and I know you have other things on your 
mind. I don't have any questions. Does anybody have any 
questions for the Senator?
    Senator Grams. But I just wanted to say, Mr. Chairman, I 
agree with you, and I think fairness is a big issue, whether 
it's 300 or 3 million. And I will continue to support efforts 
like this in the future.
    Mr. Young. I thank you, and you're excused if you have to 
go. I know you've got other things on your mind.
    Mr. Minge, do you have--you're not on--yes, he is; Mr. 
Ramstad is on the agenda. I have to go to Mr. Ramstad and then 
you'll have an opportunity to speak.
    Mr. Ramstad--and I know how you voted.

  STATEMENT OF HON. JIM RAMSTAD, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Ramstad. That's right, Mr. Chairman.
    Mr. Young. I also know you're a sponsor of ANWR, an 
original sponsor for two years in a row, two terms in a row, 
which is in my State.
    Mr. Ramstad. That's right, Mr. Chairman.
    Mr. Young. No, you can testify.
    [Laughter.]
    Mr. Ramstad. But I certainly appreciate the fact that 
you're letting me--those factors not withstanding--testify 
today, Mr. Chairman. I did support the FY 1999 Omnibus 
Appropriations bill, Mr. Chairman, which was a compromise on 
the Izembik road, just like we have a compromise before the 
Committee today, and----
    Mr. Pombo. Mr. Chairman? Mr. Chairman?
    Mr. Young. Yes.
    Mr. Pombo. May I compliment Mr. Ramstad on learning so 
quickly how to get along on this Committee.
    [Laughter.]
    Mr. Ramstad. Well, one thing we agree on, thanks to the 
chairman's great State, their favorite son, the only native 
Alaskan ever to play in the National Football League, who 
happens to be my cousin, just got another Super Bowl ring 
Sunday blocking for John Elway of the Denver Broncos--number 
69, Mark Schlereth. So we can agree on that.
    Mr. Young. That's the only reason I bet on Denver, so I can 
say that right now.
    [Laughter.]
    Mr. Ramstad. Well, thank you again, Mr. Chairman, and 
members of the Committee. This agreement, which Senator Grams 
outlined, between the Metropolitan Airports Commission and the 
Fish and Wildlife Service concerning the Minnesota Valley 
National Wildlife Refuge, is a practical, reasonable, common 
sense solution to the problem of urban encroachment.
    The agreement is supported by all parties--the Metropolitan 
Airports Commission, the Federal Aviation Administration, the 
Fish and Wildlife Service, Friends of the Minnesota Valley 
National Wildlife Refuge, and the Minnesota congressional 
delegation.
    And, Mr. Chairman, this agreement is a real tribute to all 
of these parties who worked very, very hard to craft this 
practical, common sense compromise. It will improve the 
airport, improve the refuge, and improve Minnesota. I want to 
commend, from the Metropolitan Airports Commission, Dave 
Dombrowski and Nigel Finney, who spearheaded the effort on the 
part of the MAC; they are here today; Nelson French, whom 
Senator Grams mentioned, representing the Friends of the 
Minnesota Valley National Wildlife Refuge, and Rick Schultz, 
the refuge manager, who does such an outstanding job throughout 
the year, every year, managing that great refuge; and Dan Ashe, 
who is the Assistant Director of the Minnesota Office of the 
Fish and Wildlife Service, who is also, I understand, going to 
testify today.
    I regret, Mr. Chairman, that there have been a few 
misunderstandings about the scope of the agreement. For 
example, I've seen in certain accounts that the runway is going 
to intrude on the refuge. In fact, the runway is not going to 
expand into the refuge. It will come no closer than 1.25 miles 
from the refuge. So, it is not true that the runway will in 
fact extend into or onto the grounds of the refuge. That is 
simply not true.
    The impact of the refuge on the new runway will be the 
increased noise of take-offs and landings. Yes, there will be 
more noise, and this was a big concern to me when I first 
learned of the proposal. But due to good faith efforts of all 
parties involved, this agreement has been reached, which does, 
I believe, protect the refuge, increase visitor usage, and 
allow for the needed runway expansion without the loss of one 
acre--without the loss of one acre of the existing refuge. And 
the mitigation, which will amount to not less than $20 million 
will allow the refuge to purchase new land and construct a new 
visitors' center.
    So, again, I just want to thank all of the parties to this 
agreement. It proves that government can work when people--
local people--work together with government officials, in this 
case from the Metropolitan Airports Commission, from the Fish 
and Wildlife Service, and from the refuge.
    So, thank you for the opportunity to testify today and to 
express the concerns of Minnesotans and others who support this 
agreement.
    [The prepared statement of Mr. Ramstad follows:]

 Statement of Hon. Jim Ramstad, a Representative in Congress from the 
                           State of Minnesota

    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to testify today on an issue of great importance to 
the people of Minnesota.
    The recent agreement between the Metropolitan Airports 
Commission and the Fish and Wildlife Service regarding the 
Minnesota Valley National Wildlife Refuge will provide at least 
$20 million to mitigate the noise impact of a new runway being 
built near the Refuge.
    This agreement is supported by the Metropolitan Airports 
Commission, the Federal Aviation Administration, the Fish and 
Wildlife Service, the Friends of the Minnesota Valley National 
Wildlife Refuge and the Minnesota Congressional delegation. 
This agreement is a tribute to each of these parties and 
represents a common-sense approach by all sides. It will 
improve the airport, improve the Refuge and improve Minnesota.
    Regrettably, there have been a number of misunderstandings 
about the scope of the agreement. For example, press accounts 
have reported that the runway would intrude into the Refuge. 
Let me assure everyone that this agreement will not allow the 
construction of a runway within the boundaries of the Minnesota 
Valley National Wildlife Refuge.
    The impact on the Refuge of the new runway will be the 
increased noise of takeoffs and landings. While I admit this 
was a concern to me when I first learned of this project, good-
faith efforts by all parties yielded a comprehensive agreement 
that protects the refuge, increases visitor usage, and allows 
for the runway expansion without the loss of one acre of the 
existing refuge.
    In fact, the mitigation funds will allow the Refuge to 
purchase new lands and construct a new visitors center.
    Each of the parties involved in this agreement, many of 
whom are here today, must be commended for working together to 
create a pragmatic, common-sense solution to this issue.
    Again, Mr. Chairman and members of the Committee, thank you 
for the opportunity to testify today to express the concerns of 
Minnesotans and others who support this agreement.

    Mr. Young. Thank you, Mr. Ramstad.
    Mr. Minge.

  STATEMENT OF HON. DAVID MINGE, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Minge. Thank you, Mr. Chairman. I'd just like to 
briefly state that most of the Minnesota Valley Wildlife Refuge 
is in the 2nd Congressional District, and we view this as a 
tremendous resource, not just for the district and for the 
State, but for the entire country, and it's with some regret 
that we see any portion of this district compromised. In that 
respect we appreciate your solicitude, Mr. Chairman, for the 
problems that are faced by the refuge in our State.
    There are some very positive things about this agreement, 
and certainly Mr. Ramstad and Mr. Grams have already alluded to 
several of them. I would like to point out a couple of others. 
There has been tremendous pressure to consider the development 
of another airport in the Minneapolis-St. Paul metropolitan 
area. That would take many thousands of acres, and many of 
those acres would be environmentally fragile.
    This expansion of a runway minimizes the chance that we 
will have to have a new airport developed, and if you look at 
what happened in Denver, Dallas-Fort Worth, and you see what a 
new airport means in terms of its impact on the communities 
where it's located, you understand that this is no small 
consideration. And I think that we should weigh this as we 
deliberate the objections that have been raised to the process 
that is being undertaken here.
    I would also like to emphasize that the Friends of the 
Minnesota Valley, headed by Nelson French, have been very 
vigilant in contesting anything that would constitute 
development that would compromise this refuge. And I think it's 
quite a tribute to them and to the compromise that they have 
supported this, they recognize that there are additions to the 
refuge and a relocation of the center that will actually 
enhance the refuge and in the long-run make this a more 
valuable resource for our area.
    Finally, I would like to say that I have spent a fair 
amount of time at the refuge, and as much as I share the 
concerns that you have, Mr. Chairman, and several others, about 
anything that would constitute a compromise here in a context 
that you feel might have been unfairly handled in Alaska, I do 
think that we have achieved an accommodation here that is 
reasonable.
    And I would simply urge that in your State every effort be 
made to bring all of the stakeholders together so that, like 
was done in Minnesota, you could have those groups that have 
been perhaps more contentious, that have been a burr under the 
saddle for you, if I may say that, on board and supporting 
whatever resolution you feel would be best in your State. And I 
think that's what has happened here. Thank you very much. 
Otherwise, I have submitted my statement for the record.
    Mr. Young. I appreciate that, and I want you to understand, 
the purpose of this hearing is not necessarily to criticize the 
Valley Commission or the Airport Commission. I am very 
concerned about the Fish and Wildlife and asking compensation 
of $20 million. Frankly, that does not help the wildlife out at 
all. And I also--Fish and Wildlife used arguments on the 
national level and on the local level in my area that any 
activity on the refuge would diminish the purpose of the 
refuge, and yet you know that this is a heavily used refuge 
which you are representing. And again, it's a double standard.
    And, you know, we tried, with the Fish and Wildlife. We 
tried to explain what we're trying to do. We tried. We said we 
would build the road without charging the taxpayers one nickel, 
and they said it was going to cost $100 million. This is pure 
nonsense. We tried to give them more land. We actually had an 
increase in the amount of land, and they wouldn't accept that. 
They just said, ``No, we're going to tolerate it. This is a 
national issue because there are only 300 people involved.''
    I can understand your desire not to build another airport 
because it does take a tremendous amount of land. I'm not going 
to argue the merits of building the other airport. I'm arguing 
the merits of how the Fish and Wildlife conducted itself, and 
even how the Commission was blackmailed into paying that 
compensation of $20 million--and for what? To my knowledge 
there is nothing that is going to improve the wildlife at all.
    There's not a dollar going to be spent on improvement of 
the wildlife. It's usually spent on moving the buildings, re-
establishing new buildings, or buying other private land. It's 
not for the wildlife. And you know, it's just a total, total 
lack of consideration. This is a classic example where, I 
guess, might is right; the few are discarded and the many 
survive, and the Federal agency that really is supposed to 
represent everybody on an equal basis has frankly, I think, 
done the wrong thing--not the people of Minnesota, but the 
agency itself.
    So, I thank you for your comments and we'll get to the rest 
of it. Thank you very much.
    Mr. Vento. Mr. Chairman, just a comment. I appreciate my 
colleagues' testimony, all of them in support of this 
agreement, and I think that we should--there's a vast 
difference between an air flight path and a road through a 
wilderness refuge in Alaska. I mean, you're comparing apples 
and oranges here, and the fact is if there's a case with 
regards to any wildlife refuge in Alaska that you're looking 
for compensation because of the impact of aircraft overflights, 
I would be happy to ally my efforts with yours to gain that 
type of compensation in that case. And the fact is, this is 
based upon, yes, the education and resource center that has an 
overflight path that's going to go over it by virtue of this 
extension of the runway.
    And in addition to that, there are 4,000 acres--there is 
some acreage being added to this refuge to try and compensate 
for the impact on the wildlife in that area. But, frankly, as 
you had noted rightly, because of the laws that you wrote in 
1997 and because of the 1976 law which established this, the 
Fish and Wildlife Service really has very little legal standing 
to, in fact, pursue the protection of that wildlife. Plus, I 
think the science is difficult in terms of making the 
justifications for it.
    But, nevertheless, they've been successful, even with these 
types of handicaps, using the 4(f) provisions of the 
transportation law for an aircraft overflight path--a flight 
path, not a road--and this is not a wilderness-designated Fish 
and Wildlife Service, as was the instance. So, this comparison 
is completely erroneous that you are attempting to portray. 
That you have a problem in Alaska, I admit that. I am 
attempting to designate ANWR's wilderness. I plead guilty with 
150 sponsors in the last session. We feel strongly about it.
    Mrs. Chenoweth. Will the gentleman yield?
    Mr. Vento. No, not at this point. But the fact is that this 
comparison is completely erroneous. It just has no comparison, 
and I think----
    Mr. Young. With all due respect, the gentleman knows that 
is not true. There is a great comparison; there is a tremendous 
comparison.
    Mr. Vento. I think in your mind, Mr. Chairman.
    Mr. Young. In your mind you think there's no comparison at 
all, and I understand that. But in the reality, there is a 
double standard here. Now you know and I know that we tried to 
reach solutions----
    Mr. Vento. Do you have any instance where there is an 
aircraft overflight problem in Alaska--an impact--you could 
find physical resources? I'd be happy to join you in terms of 
trying to mitigate that particular problem. That's the issue 
here. It isn't a road. Nobody's putting a road through this 
particular wildlife refuge, which isn't a wilderness, 
incidentally, as the one in Alaska is. I understand. I respect 
your views and your right to hold an opinion on this, but I 
think, to say the least, the analogy is confusing.
    Mr. Young. The gentleman from Nevada.
    Mr. Gibbons. Thank you, Mr. Chairman, and I do take 
exception to my colleague's comments from Minnesota because as 
I recall, wasn't it just the end of last year when you objected 
to an overflight for an airport in Nevada because it was 5,000 
feet above a refuge and you said it was totally objectionable 
to the wildlife habitat to have an airport that had a proposed 
flight path 5,000 feet above the ground? Not 500, not a half-a-
mile away, a mile-and-a-half and 5,000 feet, and you objected 
to that.
    Now, to come here and say that you don't have any objection 
to 500 feet over a wildlife habitat, and yet to have objected 
last year to a 5,000 foot or greater seems to me to be, you 
know, crossing similar arguments without the same degree of 
good faith involved with what we're talking about here. That 
was an aircraft overflight.
    Mr. Vento. Would the gentleman yield?
    Mr. Gibbons. No, I won't yield. I'll yield back to the 
Chairman.
    Mr. Young. The gentlelady.
    Mrs. Chenoweth. Mr. Chairman, I think the gentleman from 
Minnesota is very good at trying to redefine the problem, but 
the question here is, as Fish and Wildlife stated, in their 
opinion in this particular case, wildlife could habituate to 
the human activity--5,000 flights a day at a low altitude. Yet 
in Alaska, there were very, very few vehicles traveling on a 
gravel road, and they didn't even give anyone the chance to 
even evaluate whether the wildlife could habituate to that 
minimum human impact. And that's what this hearing is all 
about. It's the inconsistencies of the way the Fish and 
Wildlife apply their policies, and this is one of the most 
glaring inconsistencies.
    So, I don't think we ought to redefine the problem. This 
is--definitionally--this is what the problem is about, and for 
years we've been asking the Fish and Wildlife Service to really 
examine whether wildlife could habituate to human activity, and 
obviously in this case it is true.
    Mr. Young. The next panel--panel two: Mr. Ashe, Ms. 
Pickard, Ms. Marzulla, and Mr. French.
    We have a vote, so I'm going to make a suggestion that we 
go over and vote and come back as rapidly as possibly, and the 
witnesses can go to the restroom if you want to because you 
have been sitting here all morning. Approximately, I would say 
12:30 p.m. because we have two votes in a row.
    [Recess.]
    Mr. Young. But we had a series of votes, so it took a 
little longer, and we'll try to progress forth.
    The first person on the panel is Mr. Ashe, Assistant 
Director for Refuges, Fish and Wildlife Service. He is 
accompanied by Mr. Schultz, Refuge Manager, Minnesota Valley 
National Wildlife Refuge. Second is Ms. Lynne Pickard, and Ms. 
Nancie Marzulla and Mr. Nelson French. Mr. Ashe, you're up.
    Mr. Ashe. Good morning, Mr. Chairman.
    Mr. Young. And welcome, by the way, to the Committee, all 
committees. You used to work with Mr. Jones; I remember you, 
and I hope you haven't gone too far astray, but go right ahead.

   STATEMENT OF DAN ASHE, ASSISTANT DIRECTOR FOR REFUGES AND 
   WILDLIFE, U.S. FISH AND WILDLIFE SERVICE, WASHINGTON, DC 
   ACCOMPANIED BY RICHARD SCHULTZ, REFUGE MANAGER, MINNESOTA 
                VALLEY NATIONAL WILDLIFE REFUGE

    Mr. Ashe. Thank you, Mr. Chairman. Good morning, and as you 
said, my name is Dan Ashe and I am the U.S. Fish and Wildlife 
Services Assistant Director for Refuges and Wildlife, and Mr. 
Rick Schultz is with me today, and he is our manager at 
Minnesota Valley National Wildlife Refuge.
    And Minnesota Valley Refuge is somewhat unique in the 
refuge system, as it is located largely in an urban setting, 
co-existing with over 2 million Twin Cities residents. Since 
establishment, the refuge has acquired 10,000 of its authorized 
14,000 acres, built a state-of-the-art wildlife and 
interpretation visitors' center, and developed top-flight 
public use programs and facilities.
    In establishing the refuge, Congress recognized its urban 
setting and the need for the Service to work and balance the 
needs of the refuge with the urbanization of the Twin Cities 
area. The enabling legislation provided that nothing in this 
Act shall be construed as prohibiting or preventing the 
provision of vital public services.
    Further, under the National Wildlife Refuge System 
Administration Act, the Service has no authority to regulate 
air space above a refuge. And since this particular project 
will not be built upon refuge lands, the Service had no direct 
means to influence it. However, under section 4(f) of the 1966 
Department of Transportation Act, the Transportation Secretary 
may not approve a project that requires the use of any 
publicly-owned land, including wildlife refuges, unless there 
are no feasible and prudent alternatives to using that land and 
unless the project considers all possible planning to minimize 
the resulting harm.
    It was under this provision of law that we were able to 
work cooperatively with the Metropolitan Airports Commission 
and the FAA to ensure that the disturbance to the wildlife and 
wildlife-dependent recreation was minimized. It was clear that 
the overflights from the proposed runway expansion would 
significantly affect noise-sensitive public activities on the 
refuge. The intense noise at frequent intervals will 
significantly impede normal conversation of refuge visitors. 
Our long-standing and traditional outdoor activities, including 
conservation education, birding activities, youth waterfowl 
hunting, and our visiting public's ability to view wildlife in 
its natural setting without significant intrusions will be 
compromised.
    In view of these noise impacts, FAA correctly determined 
that construction and operation of the runway will result in a 
constructive use of refuge lands by the airport and are 
therefore subject to section 4(f) of the Transportation Act. 
Consequently, cooperative discussions among the parties led us 
to the agreement that is reflected in the MOU involving the 
Metropolitan Airports Commission, the Service, and the FAA.
    The MOU provides for mitigation that will replace 
approximately 4,000 acres of refuge lands, construct a new 
visitor facility away from the aircraft noise, replace 
education and interpretive facilities, provide additional 
operations funds to support the cost of running two facilities 
rather than one, and offset the Service's planning and 
administrative costs in support of this project.
    Our estimate of this total mitigation project was $26.9 
million. Nearly 60 percent of the mitigation will be directed 
to land acquisition. To the degree possible, all of these 
mitigation projects will be determined through the refuge 
comprehensive planning process, which will allow for thorough 
public involvement.
    Mr. Chairman, the impact of this proposed project on the 
refuge are regrettable, but unavoidable. They were outside of 
our direct jurisdiction and control. But I must note in 
concluding that we are pleased with the agreement reached, and 
I believe that both the American people and the citizens of the 
Twin Cities region are well-served and that Congress should be 
proud of the spirit of cooperation exhibited by these three 
agencies and by private citizens as represented by groups like 
the Friends of Minnesota Valley.
    I hope people like Lynne Pickard and Nigel Finney are proud 
of their work, and when our testimony is over I'll provide them 
both with the National Wildlife Refuge System blue goose pin as 
a very small recognition of their good work in behalf of the 
Minnesota Valley Refuge and America's National Wildlife Refuge 
System.
    I want to thank you, Mr. Chairman. I'm looking forward, I 
think, to the opportunity to answer your questions.
    [The prepared statement of Mr. Ashe may be found at end of 
hearing.]
    Mr. Young. Thank you, Mr. Ashe.
    Ms. Pickard.

     STATEMENT OF LYNNE PICKARD, MANAGER OF COMMUNITY AND 
ENVIRONMENTAL NEEDS DIVISION, FEDERAL AVIATION ADMINISTRATION, 
                         WASHINGTON, DC

    Ms. Pickard. Thank you, Mr. Chairman. I'm Lynne Pickard, 
Manager of the Community and Environmental Needs Division at 
FAA. Thank you for allowing me to appear before you on behalf 
of Susan Kurland, Associate Administrator for Airports, who is 
at our Southwest Region Partnership Conference in Texas today.
    The Metropolitan Airports Commission's plans for expansion 
of the Minneapolis Airport include a new 8,000-foot air carrier 
runway and associated development to improve airport capacity, 
operations, safety, and reduce airline delays.
    In making our decision on whether to approve the project, 
FAA evaluated the anticipated impacts on the Minnesota Valley 
National Wildlife Refuge in an environmental impact statement 
and in accordance with section 4(f) of the Department of 
Transportation Act of 1966. Section 4(f) is an important 
environmental statute, as Mr. Ashe explained. It provides 
special protection to publicly-owned parks, recreation areas, 
wildlife and waterfowl refuges, and historic sites of national, 
State, or local significance.
    Section 4(f) applies exclusively to decisions by the 
Department of Transportation, including FAA decisions on 
airport development. It permits FAA to approve the use of 
protected section 4(f) resources for an airport project, only 
when two standards are met: (1) there is no feasible and 
prudent alternative to the use of section 4(f) resources, and, 
(2) the transportation project includes all possible planning 
to minimize harm.
    These standards apply whether the use of section 4(f) land 
is physical, as in constructing on the land, or constructive. 
Constructive use occurs when a transportation project located 
near but not in the section 4(f) resource impacts it in a way 
that substantially impairs its activities, features, or 
attributes. FAA made a constructive use determination with 
respect to the Minneapolis Airport project on the publicly-
owned portion of the Refuge closest to the airport.
    Specifically, FAA determined that noise increases from 
aircraft operating on the new runway would substantially impair 
human outdoor educational and environmental interpretive 
activities, such as school field trips and scouting visits, as 
well as recreational activities such as nature walks, bird 
watching, and fishing.
    There is no physical use of the Refuge for the airport 
project, nor does FAA anticipate adverse impacts on the 
ecological integrity of the Refuge. The Department of the 
Interior was consulted on potential jeopardy to endangered 
species and critical habitat and determined no adverse effect 
in this regard.
    In accordance with section 4(f), FAA determined there is no 
feasible and prudent alternative to the constructive use of the 
Refuge. There was a very sweeping analysis of alternatives. 
Alternatives that were examined and rejected include possible 
new sites for an airport, alternative expansion concepts for 
the Minneapolis airport, high-speed, inner-city rail, a remote 
runway concept linked to the Minneapolis airport by high-speed 
transit, the shifting of some aviation users to supplemental 
airports in the region, alternative flight procedures that 
might avoid the Refuge, and the alternative of taking no action 
at all.
    Having found no feasible and prudent alternative, FAA 
participated in a mitigation plan reflected in the Memorandum 
of Agreement between the U.S. Fish and Wildlife Service and 
MAC, with FAA as a concurring party. This was developed during 
consultations over a period of two years and provides a 
specific program to minimize harm to the refuge.
    Mr. Ashe outlined the details of the mitigation. I won't 
repeat those, except to say that the Memorandum of Agreement 
also recognizes that the Refuge lands that are subject to 
constructive use because of aircraft noise will still continue 
to function as a diminished value wildlife refuge area under 
U.S. Fish and Wildlife Service management.
    The payment of funds by an airport proprietor needing to 
use a section 4(f) resource to the agency owning the resource 
so that a comparable replacement can be provided is one of 
several accepted methods of minimizing harm under section 4(f). 
The replacement of section 4(f) lands and facilities, as well 
as design measures to minimize harm, are recognized in 
published FAA environmental guidance.
    FAA has also long recognized that environmental mitigation 
associated with an airport capital development project 
qualifies as a capital cost of the airport. There are 
precedents in FAA experience for the type of mitigation agreed 
to for the Minneapolis airport project.
    I should also note here that the Metropolitan Airport 
Commission is paying the compensation. There will be no FAA 
airport improvement program funds used in that compensation. No 
Federal funds will be used.
    I should point out that section 4(f) mitigation for airport 
development is not a frequent occurrence. This is consistent 
with the purpose of the statute, which is intended to protect 
section 4(f) resources, and to set a high standard for their 
use. Simply put, FAA does not issue a sizable number of section 
4(f) determinations because we try not to use section 4(f) 
resources. Most of our determinations are for uses of urban 
parks, such as local parks, ball fields, and publicly-used 
school playgrounds because these tend to be the types of 
section 4(f) resources in close proximity to airports.
    In summary, in formulating the section 4(f) mitigation plan 
for the Minneapolis airport project, the relevant agencies 
considered the air transportation needs of the region, the 
impacts on the Minnesota Valley National Wildlife Refuge, the 
availability of any feasible and prudent alternatives, and all 
possible planning to minimize harm.
    Thank you for the opportunity to testify this morning, Mr. 
Chairman. On behalf of Administrator Jane Garvey and Associate 
Administrator Susan Kurland, I would like to say we appreciate 
your interest in FAA's perspective on this project, and I would 
be pleased to answer any questions.
    [The prepared statement of Ms. Pickard may be found at end 
of hearing.]
    Mr. Young. Thank you, Ms. Pickard.
    Nancie, you're up next.

  STATEMENT OF NANCIE MARZULLA, DEFENDERS OF PROPERTY RIGHTS, 
                         WASHINGTON, DC

    Ms. Marzulla. Thank you, Mr. Chairman, and members of the 
Committee. We are enormously pleased to have the opportunity to 
testify before you here today on behalf of Defenders of 
Property Rights.
    I'm here today to testify or to comment, not on the merits 
of the proposal which we do not take a position on, but rather 
to comment on the irony of the situation in which the U.S. Fish 
and Wildlife Service is here before you asking for over $20 
million in payment for the damage to or injury to its property 
rights.
    And I say irony, because at Defenders of Property Rights we 
litigate cases and represent property owners whose 
constitutionally-protected property rights have been injured or 
damaged as a result of actions taken by the U.S. Fish and 
Wildlife Service, pursuant to its regulatory authority under 
the Endangered Species Act, and in those cases--many, many of 
those cases--the U.S. Fish and Wildlife Service is actively 
opposing the compensation to pay for the damage to the property 
rights of the private land owners, and so we find it ironic for 
the Fish and Wildlife Service to be in this posture they are in 
today.
    With respect to the cases that I refer to and are set forth 
in more detail in my written testimony that I've submitted to 
you, let me highlight just one example for you today. We 
represent John Taylor, an elderly man in his eighties, who 
sought permission from the U.S. Fish and Wildlife Service over 
two years--now going on three years--ago to build a one-story 
modular home on his small residential lot in Fairfax County, 
Virginia. He wants to build the home to accommodate his elderly 
wife, who has been ill and is now confined to a wheelchair.
    Because Mr. Taylor's land is next to public land on which 
there is a bald eagle's nest, the Fish and Wildlife Service 
refuses to grant him permission to build the wheelchair-
accessible home unless he agrees to the following conditions. 
They include constructing a platform for bald eagles to nest in 
the national forest; contribute money--his money--to fund a 
salmon restoration plan because eagles like to eat salmon; to 
agree to accept full responsibility for any possible harm done 
to the eagles if they abandon the nest, even if they leave for 
reasons beyond Mr. Taylor's control; and agree to a permanent 
deed restriction that forever bars outdoor use of the yard 
during the months the eagles like to nest. This would be from 
July to November, thus making it unlawful to barbecue, mow the 
lawn, or have children playing outside during that time period.
    As I said, we represent Mr. Taylor in his attempts to 
either obtain permission from the Fish and Wildlife Service to 
use his land or to obtain just compensation for the taking of 
his property rights. Unless Mr. Taylor agrees to these 
preposterous conditions, Fish and Wildlife Service has told me 
orally that it will continue to block his building a home on 
his land as it has done for this three-year time period. We are 
now, in fact, being forced to file a lawsuit on behalf of Mr. 
Taylor in Federal court seeking compensation for the taking of 
Mr. Taylor's property rights.
    But, unfortunately, as I alluded to, Mr. Taylor's case is 
not an isolated example. Indeed, his case is typical in that 
often the property owner loses the ability to use his land and 
is forced to seek compensation in court where the Fish and 
Wildlife Service fights him tooth-and-nail opposing the payment 
of just compensation. Thus, it is indeed ironic that Fish and 
Wildlife Service is here today asking for the payment of the 
damage to its property, in the face of its defiant position 
toward the constitutionally-protected property rights of 
private land owners.
    We at Defenders have been before Congress many times 
testifying about the need for legislative reform to ensure that 
private property owners are paid just compensation for the 
taking of their property.
    We have also testified on more than one occasion about the 
need for reform of the Endangered Species Act, one of the most 
Draconian laws on the books in terms of its impact on private 
property rights. The problems with the Act are exacerbated by 
the expansive application given the Act by the Fish and 
Wildlife Service. The Fish and Wildlife Service has 
consistently opposed every attempt to reform the laws to grant 
a measure of protection of the rights of private property 
owners, which are routinely damaged or destroyed by the Service 
acting under laws such as the ESA.
    We are pleased to see that the Fish and Wildlife Service 
has suddenly discovered the importance of private property 
rights--at least its own property rights. Now that the Service 
has experienced first hand the destruction of its property 
rights by governmental action, we would expect its support for 
property rights legislation in the 106th Congress.
    Thank you.
    [The prepared statement of Ms. Marzulla may be found at end 
of hearing.]
    Mr. Young. Thank you, Ms. Marzulla.
    Mr. French.

STATEMENT OF NELSON FRENCH, EXECUTIVE DIRECTOR, FRIENDS OF THE 
            MINNESOTA VALLEY, BLOOMINGTON, MINNESOTA

    Mr. French. Mr. Chairman and members of the Committee, I'm 
Nelson French, executive director of the Friends of the 
Minnesota Valley.
    It is indeed an honor to be invited to appear before you 
today to speak with you about the Minnesota Valley National 
Wildlife Refuge and the recently-concluded discussions between 
the Fish and Wildlife Service, FAA, and MAC regarding the 
mitigation of impacts associated with the expansion of the 
airport in the Twin Cities.
    The Friends of the Minnesota Valley was incorporated in 
June of 1982 as a non-profit organization and is one of many 
similar organizations cooperating with the Fish and Wildlife 
Service in local communities across the country. Many of the 
members here--many of you who have refuges in your districts--
may be well-familiar with your Friends organizations.
    Before we get to the question and topic I was asked to 
comment on today, I would like to share with you a bit about 
our history and the way in which we have chosen to work within 
our community, as I believe it is relevant to the issue being 
discussed today.
    The dream of having a national wildlife refuge in the 
Minnesota Valley was developed in the early 1970's by a group 
of citizens called the Burnsville Environmental Council. 
Frustrated with their failure to stop the expansion of landfill 
operations in the Burnsville portion of the Minnesota River 
flood plain, they decided that a more comprehensive approach 
was necessary to protect the river bottoms in their community.
    As a result, in 1974 the Burnsville group produced a 24-
page booklet that proposed a Minnesota River national wildlife 
refuge and recreation area. The Council sent the booklet to 
everyone, from local city councils to the President of the 
United States. Fortunately, then-Congressman Bill Frenzel 
responded by asking the Department of Interior to investigate 
the feasibility of establishing a national wildlife refuge in 
the valley.
    The result was the development in 1975 of a proposal for 
such a refuge. The Burnsville Council reached out across the 
river and then asked the Bloomington Resources Commission for 
help. Together they formed a local group known as the Lower 
Minnesota River Valley Citizens Committee. Now that group is 
known as the Friends of the Minnesota Valley. This citizens' 
committee kept up the contacts between volunteers and invited 
people to share in the vision of the refuge proposal along a 
34-mile stretch of the Minnesota River.
    Countless presentations were made to communities and 
community groups up and down the river for the purpose of 
educating people about the project, seeking endorsements, and 
working out consensus on issues of concern within the 
community.
    After this engaging process, the citizens' committee was 
able to get support and resources from more than 40 private 
groups and public groups, including local and national 
conservation organizations, chambers of commerce, corporations, 
the Jaycees, State agencies, the Minnesota legislature, and 
local units of government. Through this process many issues 
were worked out between the stakeholders, who had differing 
views of the refuge proposal, and consensus was reached.
    In July of 1975, then-Senator Walter Mondale and Hubert 
Humphrey introduced a bill to establish the Minnesota Valley 
National Wildlife Refuge. Then Congressman Oberstar, along with 
former Congressmen Frenzel and Hagedorn, introduced a similar 
bill in the House of Representatives. By late September, 1976, 
both Houses of Congress had passed the authorizing legislation 
which we've heard discussed today, and President Ford signed 
the bill creating the Minnesota Valley National Wildlife Refuge 
on October 9, 1976--a true community-based and bipartisan 
effort. The Minnesota Valley National Wildlife Refuge is a 
magnificent urban refuge that owes its existence to groups like 
the Friends of the Minnesota Valley and our precursor citizens 
groups.
    Our group did not stop with the establishment of the 
refuge, however. Our efforts now are focused more broadly on 
protecting the lower Minnesota River watershed and its 
environs. Since establishment of the refuge, we have 
successfully worked with the congressional delegation and the 
State legislature to acquire refuge lands and associated State 
properties--two State parks at each end of the refuge--to 
construct a visitor and education center, which is now a model 
for nationwide use, and provide an excellent environmental 
education resource for the Twin Cities public-at-large.
    While continuing to work on the basic issues of non-profit 
organizational existence, like fundraising and membership 
development--and we now have over 600 members--the Friends have 
helped enlist volunteers. We have enrolled over 10 percent of 
the refuge neighbors in our private lands registry program. 
These are voluntary private citizens recognizing the value of 
their private property adjoining the refuge.
    We have coordinated efforts for water quality monitoring 
with 13 public schools in the area. We communicate with 
residents of the watershed regularly and raise awareness of 
this resource within the Twin Cities, and we are increasingly 
fostering partnerships to improve the lower Minnesota River 
watershed and ecosystem, a program begun Minnesota River basin-
wide by Governor Carlson eight years ago.
    The current situation: In February of 1998, the Friends of 
the Minnesota Valley, following this style of working in the 
community, began to see if we could develop, in association 
with the Airports Commission and other local stakeholders, an 
agreed upon solution to the potentially contentious issue of 
expansion of the airport.
    We knew the 1996 decision by the Minnesota legislature to 
expand the airport and route air traffic over the refuge had to 
be implemented. After extensive review of the situation, our 
organization, in concert with 16 local and national 
conservation and community groups supported the concept of 
mitigating these impacts associated with the expansion of the 
airport.
    We co-sponsored, in association with these groups and 
others, a public open house at which time representatives from 
all three Federal agencies--excuse me--the Airports Commission 
and the two Federal agencies--appeared for the first time 
together in public to respond to the questions that were 
revolving around this issue. The outcome of that meeting was 
significant progress towards the necessary development of a 
community consensus on the mitigation package.
    I can't sit here and say that we don't regret the loss to 
the public of the resource that's being lost here--the Black 
Dog Lake unit and the Meadow Lake units of the refuge. They 
will no longer be available for outdoor, educational, classroom 
use, birdwatching and other such things.
    We, however, recognize that the airport must expand to meet 
the needs of the flying public, and we have contended that 
expansion of the airport at this location will result in less 
overall environmental and natural resource damage in Minnesota 
than would construction of a new airport on a 21-square mile 
site affecting many private agricultural landowners.
    The Friends of the Minnesota Valley----
    Mr. Young. How much more do you have?
    Mr. French. I have about two minutes.
    Mr. Young. Take one minute.
    Mr. French. One minute. Okay. We applaud the Airport 
Commission, the FAA, and the Service for recognizing the 
serious nature of these impacts. We look forward to working 
with the Service and the community to develop the National 
Wildlife Refuge Enhancement Act required comprehensive 
conservation plan to further the refuge values in this 
watershed.
    I now want to respond to the question that the Committee 
asked me to respond to. In your letter to us you asked this 
question: ``The Committee would appreciate your addressing the 
issue of how the Fish and Wildlife Service agreement for 
compensation will impact the rights of private property owners 
to receive compensation for the constructive use of their land 
in connection with the protection of wildlife.'' In analyzing 
that question--and I'm not sure we're the ones that need to be 
asked that--it is our understanding that private wildlife lands 
are not eligible for review under the constructive use 
provisions of section 4(f) of the 1966 Department of 
Transportation Act.
    It is also our understanding that the agreement between the 
Fish and Wildlife Service and the Airports Commission will have 
no impact on the rights of private property owners to receive 
compensation for their land through a fee title acquisition 
transaction in connection with the protection of wildlife.
    This concludes my prepared remarks. We really thank you for 
the opportunity to be with you today. Mr. Chairman, and 
members, I'll be happy to respond to any questions that you 
have. Thank you.
    [The prepared statement of Mr. French may be found at end 
of hearing.]
    Mr. Young. Thank you, Mr. French.
    Dan, who instigated, or where did the idea for compensation 
to the Fish and Wildlife come from? Was that instigated by your 
department, or was that instigated by the FAA?
    Mr. Ashe. I think during the process of developing the 
environmental impact statement on the proposed runway project 
and our comments and response to the analysis of alternatives 
in the draft environmental impact statement, it was the Fish 
and Wildlife Service who raised the possibility that there 
would be a constructive use of the Minnesota Valley National 
Wildlife Refuge and that the 4(f) provisions of the 
Transportation Act would apply.
    Mr. Young. Actually, the instigating of a fee was started 
in your department.
    Mr. Ashe. I believe the original proposal for a mitigation 
package was transmitted from us to the FAA.
    Mr. Young. Okay. Ms. Pickard, where is that money coming 
from?
    Ms. Pickard. As I said, the Metropolitan Airports 
Commission is paying the money.
    Mr. Young. And they are getting the money from----
    Ms. Pickard. There will be no Federal funds. They may use--
--
    Mr. Young. And they are getting the money from where?
    Ms. Pickard. They may use airport revenue for the 
compensation. They may also use some passenger facility charge 
money, and they may use other money that is not within any 
knowledge of the FAA, unrelated to the airport.
    Mr. Young. Have you studied the constitutionality of this? 
You're spending money not appropriated by Congress, and you're 
actually putting a tax on the passengers to pay the $20-some-
odd million to Fish and Wildlife, are you not?
    Ms. Pickard. You're referring to the passenger facility 
charge. Passenger facility charge moneys are eligible for 
environmental mitigation related to an airport capital 
development project, and this is considered within that scope. 
It's local money, not Federal money.
    Mr. Young. But it's taxpayers' money; it's not local money.
    Ms. Pickard. It is a head tax, if you will----
    Mr. Young. And I thought only the Congress could pass tax 
law when it comes to redistributing money from one agency to 
another agency. So what I'm getting to is the Fish and Wildlife 
are circumventing this Committee in the appropriation process. 
You're taking over $20 million, and you put down this wish 
list--and that's why I asked you, Dan, where it came from--and 
you're asking for new employees, you're asking for new 
facilities, boardwalks, et cetera, et cetera. And I've got to 
ask you, what would have happened if the Commission hadn't 
agreed to this? The Commission is not losing any money. They 
are taxing people to pay for this. Now if they had not agreed 
to this amount of money, could you have stopped this project?
    Mr. Ashe. We could not have directly stopped the project, 
Mr. Chairman. What we could have done was continue to express 
our views about the impacts of the project on the Minnesota 
Valley National Wildlife Refuge, and the Federal Aviation 
Administration has the responsibility to consider our views and 
comments in the conduct of making their decision on the airport 
to approve the airport construction project.
    Mr. Young. Are you telling me the FAA could have gone ahead 
and built this without your blessing?
    Mr. Ashe. It's their decision to make. They have a 
responsibility, as I read the law, Mr. Chairman, to minimize 
and mitigate to the extent feasible the impacts on refuge 
lands. We believe that they have done that in good faith and 
done that in compliance with the law as we recommended they do. 
But had we continued to--had they not agreed to this agreement 
and we had continued to express our reservation, then, again, 
FAA is the decisionmaker in this case. And, Lynne, I don't know 
if you have anything else to offer, but they are the 
decisionmaker.
    Mr. Young. Well, you see what I'm leading up to. To me, 
this looks like sort of a form of extortion because you're not 
using money to re-establish any wildlife; you're using it to 
build a pretty good layout--a visitors' center, a walkway, 
observation towers, observation platforms, new personnel. I 
mean, it's a great wish list and I can understand the 
Commission doing this.
    And, by the way, Mr. French, do you get any of this 
compensation money? Your agency? Your group?
    Mr. French. Mr. Chairman?
    Mr. Young. Yes.
    Mr. French. At this point in time we are not getting this 
money.
    Mr. Young. Are you in this mix of this $20 million at all, 
in any way?
    Mr. French. At this point in time, no.
    Mr. Young. What do you mean at this point in time? Are you 
going to apply for it?
    Mr. French. The community is discussing--no, we're not 
going to apply for it. I'm sorry, Mr. Chairman. The funds as I 
understand it will be used to mitigate, through land 
acquisition and construction of facilities, the impacts 
associated with the new runway.
    Mr. Young. It goes back to what I said, Dan. You are 
mitigating building the brand new facility, is what you're 
doing.
    Mr. Ashe. That's correct, Mr. Chairman. What I would do, 
though, is disagree with your assertion that we are 
circumventing this Congress or circumventing this Committee or 
the Congress because the Minnesota Valley National Wildlife 
Refuge is an authorized refuge that's been authorized 
specifically in legislation by Congress. The legislation 
directs us to establish and maintain a visitor center and 
visitor facilities.
    The Congress, through the appropriations process, sets the 
level of FTE's that the Service can have. So, we can gain 
dollars to help us achieve an objective. We can't achieve that 
objective unless we have authority granted to us by Congress, 
and in this case we do have that authority. So I guess I would 
disagree with your assertion that we are circumventing 
Congress. We are going to replace--it is our intention to 
replace the facilities that we believe will be impacted by the 
noise created by this runway expansion.
    Mr. Young. Well, another thing is, Dan, you know and I know 
that moneys being spent should go either through the Treasury 
or should go through the appropriation process. And I'm 
concerned primarily with the purchase of land, and it goes back 
to private property rights again. Now are you--with the 
agency--you have in-holdings or adjacent holdings--are you 
enforcing the buffer zone concept that those people have to 
sell? Or is it willing buyer, willing seller?
    Mr. Ashe. We would acquire land, as we do in every 
instance, from willing sellers.
    Mr. Young. Without putting any restriction on them or 
anything else, like they did in California?
    Mr. Ashe. Yes. No, sir; without putting any restrictions on 
them.
    Mr. Young. Okay, you heard what Ms. Pickard--not Ms. 
Pickard, Ms. Marzulla--had to say about in Fairfax--was that in 
Fairfax?
    Ms. Marzulla. Fairfax County, Virginia.
    Mr. Young. Have you got that documented?
    Ms. Marzulla. Oh, we do, yes.
    Mr. Young. Mr. Ashe, are there any salmon in Fairfax 
County?
    Mr. Ashe. I've never heard of or seen a salmon in Fairfax 
County. That's why it sounds rather far-fetched to me, Mr. 
Chairman. I would like to--but I am not familiar with the case 
at all.
    Mr. Young. Well, I want to suggest, as the Deputy Assistant 
Secretary, you get real familiar with that case real quick, 
because this is the type of thing that gives you really black 
eyes. I mean, I could see possibly the concern for the bald 
eagle, although they will nest anywhere they want to nest. I 
think they've proved that.
    Mr. Ashe. If the reference is to salmon in Fairfax County, 
I guess I would posit myself that that reference is in error on 
somebody's part, and I would gather that it's probably not our 
biologist who is claiming that there are salmon in Fairfax 
County.
    Mr. Young. Okay, I'm going to suggest----
    Mr. Ashe. My guess would be that it might be shad or one of 
the other anadromous species of fish that eagles feed on.
    Mr. Young. And this senior citizen is supposed to re-
establish the shad run? I'm going to suggest that the two of 
you sit down and work this out somewhere along the line because 
this is the thing I really like to go to ``60 Minutes'' about, 
and I have no reservations about going to ``60 Minutes'' about 
this if I can get some assistance in doing it. Because this is 
an example of what occurs with the lack of sensitivity within 
the agency itself.
    And you know I'm not picking on you, Dan. The whole agency 
is screwed up, if you want to know the truth.
    [Laughter.]
    I mean, I've watched it just deteriorate in the last six 
years to the point where you have no consolation or no 
consideration for the people that you're directly interfacing 
with, and we see it probably more in Alaska than in any place 
in the Union right now, especially the Izembek operation.
    I've got a whole series of questions, you know, that just 
absolutely do not parallel what you're saying here in your 
testimony, and I won't go into them because my time is up.
    The gentleman from Minnesota.
    Mr. Vento. Mr. Chairman, I think that when we get into 
these anecdotal stories that are sort of unrelated to the topic 
at hand that it's always good to hear both sides of it before 
we pass it over to ``60 Minutes'' or to anyone else.
    Mr. Young. Well, I'm saying they had better fix it or it 
will be on ``60 Minutes.''
    Mr. Vento. Let's have a hearing on it and let everyone know 
and put it on the table.
    Mr. Young. I want ``60 Minutes.''
    Mr. Vento. I know. I know what you want.
    Mr. Young. I want to be Bill Clinton; that's what I want. 
I'm going to spin this; that's what I'm going to do.
    Mr. Vento. I know. You want a little word association game 
here, you know. I understand. You know, I think it does not 
help in terms of using this as a platform to get up and state, 
``We're mad as hell and we're not going to take it any more.'' 
Well, I've done it, but I don't think it particularly helps 
here in terms of what's going on.
    The issue with the ticket tax--in fact, the revenues here, 
Ms. Pickard, are coming from property taxes. They're coming 
from bonded debt; they could come from a variety of different 
funds that the Metropolitan Airports Commission has. Is that 
correct?
    Ms. Pickard. The passenger facility charge would be an 
authorized fee on passengers using the Minneapolis-St. Paul 
Airport.
    Mr. Vento. Oh, I know what it is. I'm just saying that the 
money that they are using here may come from a variety of 
different sources. They are spending $5 billion to do this 
project.
    Ms. Pickard. The Metropolitan Airports Commission would 
have to address that. I would assume it probably is. We have 
only given them our opinion that they could use airport revenue 
or they could use passenger facility charges.
    Mr. Vento. Well, they are using that money. We don't 
approve the money when they spend $100 million to insulate 
4,300 homes. The FAA didn't necessarily have to pass judgment 
on that. That's their authority to use those dollars. Is that 
correct?
    Ms. Pickard. Sir, they certainly have authority to use 
airport revenue appropriately for environmental mitigation 
without FAA approval. We do have to approve the use of 
passenger facility charges.
    Mr. Vento. Yes. Well, the governance structure--well, they 
paid that money out of, I'm sure, part of it out of that, or at 
least when it came into existence they planned on paying and 
buying--they ended up paying $200 million more for the same 
purpose in terms of insulating homes in the area against such 
structure. I'm just trying to point out that private property 
here is impacted and is compensated where there is a 
demonstrated effect or where it has an impact insofar as their 
agreement. Now I don't know that it's gone to court to 
establish what the property rights issue is.
    Mr. Ashe, and Mr. Schultz, who is with you, the Director, I 
guess, of this Fish and Wildlife Service area, was there any 
suspension of any of the NEPA laws or EIS laws with regards to 
this issue?
    Mr. Ashe. No. In fact there was complete compliance, and in 
fact that is, in my view, one of the major contributing factors 
to what led to the positive resolution in this case, was that 
we had an agency that took its environmental analysis 
responsibilities very seriously, looked at all of the 
alternatives, compared the impact of the various alternatives 
on the refuge and provided that analysis for both the public 
and for the Fish and Wildlife Service and other agencies to 
see. So there was complete compliance as far as I could tell.
    Rick?
    Mr. Vento. Rick--Mr. Schultz? I guess he's agreeing with 
you.
    Mr. Schultz. Yes, I feel that. Mr. Chairman, I feel that 
FAA and MAC did a very nice job of going through the 
environmental compliance documents. They had both the draft 
EIS, which was a thorough analysis of the environmental issues 
associated with the new runway expansion, plus they had the 
final EIS. They also had the 4(f) evaluation which addressed 
environmental compliance issues as well.
    Mr. Vento. There's a suggestion, of course, that the 
information or documentation with regards to the impact on the 
fish and wildlife in the area--the fauna and flora--was not as 
well-documented, that it was not, in this instance, possible to 
document what the impact is. But the 4,000 acres of land that 
are going to be purchased here to augment and mitigate this, 
will in fact have a positive impact on the fauna and flora in 
the area and the purpose and mission of the Fish and Wildlife 
Service. Is that correct, Mr. Ashe?
    Mr. Ashe. I believe it's correct. Rick could probably 
provide you with a more specific answer. I'd like him to 
address that.
    Mr. Vento. Yes.
    Mr. Schultz. When we went into negotiations with FAA and 
MAC on this issue, we had two basic principles here. One was to 
assure that there was a no-net loss of wildlife habitat 
associated with the project, and number two, we wanted to 
assure that there would be a no-net loss of the opportunity for 
the public to view wildlife in its natural setting. And the 
compensation that we have agreed to will allow us to fulfill 
those principles.
    Mr. Vento. I just would, again, want to point out there is 
no road going through here. This isn't a wilderness area. And 
with response to my colleague from Nevada, I did review just 
briefly the Ivanpah Airport issue, and I find that in the 
legislation there is a suggestion.
    The proposal was to suspend NEPA and to suspend FLPMA and 
to override the BLM local policy with regard to--just as 
starters. So, it may be that one of my concerns, as the 
gentleman stated, was clearly the fish and wildlife or the 
impact on the Mojave and other things, but I'd be happy, you 
know, to work with him on that particular issue.
    And the major point here is, of course, to compensate where 
there is an impact on public land and certainly where there is 
a legally documented legal impact on private property, as we're 
doing, obviously, with these flight paths. And I know this is a 
big issue in the West, and I think, obviously, confusing it 
with roads through a wilderness wildlife refuge is so----
    Mr. Young. The gentleman's time is up. I just want to make 
one suggestion. According to this one requirement by the Fish 
and Wildlife, they want so many roads and trails built, so many 
observation areas built. This is all in the refuge--and parking 
lots. I mean, this is going to be built. Is that correct, Mr. 
Schultz?
    Mr. Schultz. Mr. Chairman, that is correct. The mission of 
the Minnesota Valley National Wildlife Refuge has two 
components to it. One is to restore and protect habitats for 
fish and wildlife; the other is to provide wildlife-dependent 
recreation and environmental education activities.
    Mr. Young. Okay. Why I'm bringing this up is he keeps 
talking about a road through a wilderness which was created by 
this Congress that already had 40-some odd miles through 
Izembek.
    Mr. Vento. Well, they are replacing the----
    Mr. Young. No; I'm just saying, they are replacing it, but 
they are putting it in the refuge, and all we wanted is a 
little, old, silly gravel road, just so I can save my people.
    May I make a suggestion to the members here? He keeps 
referring to the purchase of 4,000 acres. Now, have you 
identified those 4,000 acres? Have you talked to those 
landowners, and what are their feelings about being purchased?
    Mr. Ashe. I think our normal procedure with regard to 
refuge acquisition would be to establish a refuge boundary. We 
do an environmental analysis. In this case, maybe some parcels 
are already within the existing refuge boundary, in which case 
we've already done that type of analysis and public input. As I 
indicated, our desire in this case is to implement the 
mitigation agreement through the development of our 
comprehensive conservation plan for the refuge, which will 
involve, again, public notification.
    Mr. Young. I know my time is up, but I want to get it 
straight. If I find one member that is being brow-beaten into 
selling his land because you've put a border around him, you're 
going to be back before this Committee again.
    Mr. Vento. Mr. Chairman?
    Mr. Young. This is what I'm trying to say: You say you're 
going to buy 4,000 acres, and, you know, when you purchase 
4,000 acres, $20 million is being raised by users' fees on 
people who fly through the Minneapolis Airport. I'm just--I 
want to make sure that you're not really using the big, heavy 
hammer.
    I'm out of time. Mr. Pombo.
    Mr. Vento. Well, Mr. Chairman, let me just point out that 
there is also an active program by the State, the RIM program 
and the conservation reserve program--that they have actually 
had a series of agreements up and down the Minnesota River 
Valley which are quite substantial, and it might be well for 
Mr. Schultz to address that since you're concerned. So there 
have already been initiatives on those areas.
    Mr. Young. Well, I'm not concerned about the State; I'm 
concerned about the role of the Fish and Wildlife. That's my 
jurisdiction. Now the State can do anything they want to do. 
But I'm just saying--I'm very conscious. I've seen this happen 
to--Mr. Pombo may ask a question about it later on--but I've 
seen it happen in other areas of the United States.
    Mr. Pombo.
    Mr. Pombo. Thank you, Mr. Chairman.
    Mr. Ashe, in your prepared statement, you state that in the 
Wildlife Refuge System Improvement Act of 1997 that Fish and 
Wildlife Service has no authority to regulate air space above a 
refuge. You further state that, ``I want to emphasize again 
that no part of this runway will be constructed on either 
existing or future refuge lands.''
    You also state in your printed testimony that publicly-
owned land under the Transportation Act--``publicly-owned land 
from a public park, recreation area, or wildlife and waterfowl 
refuge of national, State, or local significance.'' If you have 
no authority to regulate air space and if none of the refuge 
land is going to be used for this runway, how do you tie in 
section 4(f) in order to obtain the mitigation money?
    Mr. Ashe. I guess I would say, going back to Ms. Pickard 
and the testimony of FAA, that section 4(f) contemplates two 
types of use of public lands, both physical use--occupying the 
property--so if they did our land for a runway or a road, that 
would be physical use.
    Mr. Pombo. Which you state is not the case.
    Mr. Ashe. Is not the case in this instance--or constructive 
use, which means the presence of noise generated by aircraft 
overflights is essentially rendering our refuge useless, from 
the standpoint of achieving the purposes which Congress has 
legislated us to accomplish at that refuge. But we have a 
public education mission at Minnesota Valley Refuge, where the 
public has made substantial investment.
    Mr. Pombo. So it's your guess--guess--that 4,000 acres of 
the refuge will be rendered useless because of this runway, and 
you're going to take the money and buy 4,000 acres somewhere 
else in order to mitigate, to make up for the impact.
    Mr. Ashe. What we have said is that the noise generated 
from the aircraft will make it difficult for us to accomplish 
our conservation education and wildlife interpretation mission 
on those portions of the refuge, and we have asked----
    Mr. Pombo. So it's not a full taking; it's a partial taking 
of the use of that part of the refuge.
    Mr. Ashe. Well, it's not a taking at all. We are relying on 
the constructive use provisions in section 4(f) of the 
Transportation Act, which provides for mitigation in this case.
    Mr. Pombo. And the constructive use is the partial taking 
of that property. The language that you are using is the same 
language that refers to private property in that it is a 
partial taking use. It is a constructive use of your property, 
just as if some other activity limited the use of your 
property, it would be a partial taking, a partial taking of 
that property, a partial use of that property.
    I am somewhat confused as to--with all of the laws that are 
out there right now--how you can still have a mitigation and 
still require the payment of $20 million on that, because even 
in reading your statement, I don't see how you start here and 
end up with requiring that $20 million payment.
    But I do need to ask you, was a section 7 consultation done 
under Endangered Species with FAA on this?
    Mr. Ashe. Well, the FAA considered the impacts of the 
proposed runway on the federally-listed species that are 
present in the Minnesota Valley refuge area in the conduct of 
doing their EIS, and the Service reviewed their analysis and 
made the determination under the Endangered Species Act that it 
was not likely to affect the bald eagle, which is the resident 
species there.
    Mr. Pombo. Weren't there other endangered species that were 
looked at on this as well, or was the bald eagle the only one?
    Mr. Ashe. Rick is in a better position. The bald eagle is 
the principal species.
    Mr. Schultz. Yes, both the bald eagle and the peregrine 
falcon are in the area. The peregrine falcon nests on a hacking 
box on a NSP power plant tower about two miles away from the 
end of the runway.
    Mr. Pombo. Excuse me--on a power plant tower?
    Mr. Schultz. That's correct.
    Mr. Pombo. Okay.
    Mr. Young. If the gentleman from California would do me a 
favor, I'd like to have you take the gavel. Would you take the 
gavel, the gentleman from California?
    Mr. Pombo. Yes, I'll take the gavel, but I don't want you 
to take me time.
    [Laughter.]
    Mr. Young. You can do anything you want when you've got the 
gavel, buddy.
    Mr. Pombo. If I've got the gavel, then I guess I get to 
keep asking questions.
    Mr. Young. You can ask questions as long as you want, as 
long as you've got the gavel.
    I just want to ask, when did this project start?
    Ms. Pickard. The FAA began our review in the early 1990's, 
with the Federal EIS starting in 1994 or 1995. The State 
legislature had been dealing with about seven years' worth of 
planning studies before that point.
    Mr. Young. All right. Before I relinquish this, Richard, 
just one thing. I'm still confused about--my interpretation of 
the Constitution is the protection of the private property 
right holder, and you're not private property. Fish and 
Wildlife is public property, and I don't see where you have the 
authorization to be compensated by another Federal agency or by 
the airport.
    You know, if I was really nasty, I'd likely take to filing 
a lawsuit to stop this project, because I don't think you have 
the authority to do what's been done--either one of you. And if 
you read the Constitution very carefully, it says ``use'' and 
it refers to the private citizen, not another Federal agency. I 
mean it's something I want you to think about for a while. I 
know you struck a deal; I understand that. But you're messing 
with the constitutional law here and it really concerns me a 
little bit.
    Mr. Pombo, you're up.
    Mr. Pombo. [presiding] I just wanted to get back to the 
issue of section 7 consultation. You identified at least two 
endangered species that were looked at as part of this. Under 
section 7, under the Endangered Species Act, could you have not 
stopped the construction of this runway if there was not 
sufficient mitigation to mitigate any impact against those 
endangered species?
    Mr. Ashe. If there were an effect on the endangered species 
then we could have, but what we would do under the section 7 
process is notify the action agency, in this case FAA, that 
there are endangered species present and there is or is not the 
likelihood of take in association with the project.
    Again, it's the action agency that has the responsibility 
to avoid take. The law prohibits take. And it's our 
responsibility at the Fish and Wildlife Service to advise 
Federal agencies of the potential effects of a project and 
whether a project is likely to affect endangered species and 
whether a jeopardy situation may arise in the conduct of an 
agency conducting their activities. So, it would be our 
responsibility to advise them.
    In this case we did look at the available information and 
made a determination that the activity was not likely to affect 
the endangered species.
    Mr. Pombo. Under the current interpretation of the 
Endangered Species Act, take includes harassment, and it's your 
testimony that the 7,000 flights a month present no harassment 
or take of the endangered species.
    Mr. Ashe. That was our assessment in looking at the 
project. I guess I would point out to the Committee--and I 
heard a number of members raising issues surrounding the 
potential impacts of overflights on species--and I guess I 
would just point out that the impacts of overflights on species 
are case-dependent. It depends on the species; it depends on 
the airport; it depends on the types of aircraft that are 
flying; it depends on the time of year that they're flying. And 
so, looking at any one instance and the specific facts around 
that instance may lead to a different conclusion.
    We have a very active, very vibrant bald eagle population 
about three miles south of here at Mason Neck National Wildlife 
Refuge, itself right in the flight path of National Airport, 
and so there are many instances in which wildlife can adapt to 
aircraft overflight and do adapt well to aircraft overflight. 
There are other situations where they do not adapt well to 
aircraft overflight, and it is dependent upon the species and 
upon the facts of the specific case.
    Mr. Pombo. My time has expired, but I think what you're 
hitting on is exactly the problem that a number of members have 
with the Fish and Wildlife Service. It's that at certain times, 
depending on whatever conclusion you come to, sometimes these 
are okay, and other times they are not okay. And it appears to 
a lot of us that there is a regional decision that is made as 
to when it's okay and when it's not okay, depending upon what 
part of the country it is or whose ox is being gored by it. And 
at other times it appears that if there is a sufficient payment 
made to Fish and Wildlife Service, a lot of times the problems 
aren't as severe as they would be otherwise.
    It makes me wonder if my county had raised $20 million in 
some kind of a tax and paid Fish and Wildlife off, if we would 
have been able to maintain our levees, because we were told no 
and we didn't have endangered species. It was potential 
habitat. They couldn't find an elderberry beetle for miles 
anywhere near the levees that we were trying to maintain, but 
there were elderberry bushes there, so it was potential 
habitat, so we were told we couldn't do maintenance on our 
levee system. I wonder if we would have put $20 million into 
some kitty if we could have done it, and that's the question 
that a lot of us have.
    Mr. Gibbons.
    Mr. Gibbons. Thank you, Mr. Chairman, and in response to my 
colleague from Minnesota, I want to ensure him and his staff 
that we are willing to work with you on this Ivanpah bill; 
however, it does not, and the language in the bill is 
absolutely, specifically clear, that it does not waive any 
environmental impact law. It does not waive FLPMA. It's all 
stated within the bill that those were to be complied with, and 
fully. So, I appreciate your comments, and I look forward to 
having my staff work with you on the issue.
    Following on with what my colleague from California was 
talking about on the endangered species and that, Mr. Ashe, I 
know that in the environmental impact statement that was 
prepared, there's a quote in there that in essence says that 
wildlife or waterfowl appear to readily habituate to frequent 
aircraft overflights: ``It is concluded that aircraft noise 
within the affected environment would not significantly 
diminish the wildlife habitat in the refuge.'' Is that true?
    Mr. Ashe. That's true. Well, I would say----
    Mr. Gibbons. Now explain to me how aircraft noise, whether 
it's in Nevada, Minnesota, California, or Timbucktu, does not 
impact wildlife habitat.
    Mr. Ashe. I guess what I would say is I think you correctly 
quoted our citation in the environmental impact statement. I 
think that what we have said is the impacts on wildlife from 
the overflight, in our view, were uncertain. We did not feel 
that what we knew about the impacts of overflights----
    Mr. Gibbons. Well, the uncertainty is not in your language. 
It says, ``It is concluded''----
    Mr. Ashe. Right.
    Mr. Gibbons. [continuing] ``that aircraft noise within the 
affected environment would not significantly diminish the 
wildlife habitat in the refuge.''
    Mr. Ashe. And, again, that's our conclusion, because we did 
a literature search, we looked at the available scientific 
information on the impacts of similar types of overflights, and 
we did not feel that there was a way that we could conclusively 
determine that there would be an impact.
    Mr. Gibbons. So, I can go back and I can use the same 
argument on any other project which has an overflight and say 
that you don't have literature or statements available to say 
it would impact wildlife habitat.
    Mr. Ashe. No, sir. No, sir. I believe what I tried to 
explain to the Committee just a few moments ago, and perhaps 
did an insufficient job, was that it depends on the type of the 
species and the time of the year and the type of aircraft.
    Mr. Gibbons. Well, you can't tell me--and I'm an airline 
pilot--that an airplane makes a different noise in California 
than it does in Minnesota when it's landing or taking off. You 
can't tell me that an aircraft makes a different kind of noise 
in Nevada than it does in Minnesota.
    Mr. Ashe. No, sir; I can't do that, but I can tell you----
    Mr. Gibbons. Well, that's what you're trying to tell us.
    Mr. Ashe. No, sir. What I'm trying to tell you is that a 
lesser snow goose is different from a black brandt, which is 
different from a bald eagle, which is different from a white 
ibis.
    Mr. Gibbons. Absolutely. Now where in the literature is 
there that shows that those individual species are impacted by 
noise differently than the ones in this refuge?
    Mr. Ashe. I think that we do have that information. I would 
like Rick Schultz to be able to present that to the Committee.
    Mr. Schultz. I have with me today several literature 
reviews that talk about the way aircraft impact different 
species of wildlife. I can get that out of my briefcase, if you 
would like. There has been an awful lot of work done on noise 
and aircraft overflights.
    Mr. Gibbons. I would like a copy of that, if you would 
provide it to my office. I don't know if the Committee needs 
it, but I would sure like a copy of it for my office.
    Mr. Pombo. Without objection, it will be included as part 
of the record if you could provide that.
    [The information may be found at the end of the hearing.]
    Mr. Gibbons. One final question, Mr. Chairman, if I can. 
The use of the term ``urban refuge'' indicates that growth--
urban growth--is a reality that has to be dealt with, and I 
think that's pretty much your statement, isn't it? The reality 
of urban growth, Mr. Ashe?
    Mr. Ashe. I think that we have a refuge that was 
established in that context, and Congress gave us specific 
direction with regard to our management and stewardship of that 
refuge.
    Mr. Gibbons. Well, your statement is an urban refuge, where 
urban encroachment is a fact of life; you have to deal with it.
    Mr. Ashe. Correct.
    Mr. Gibbons. In many of these cases that we see here in 
this body, they deal with urban settings or community settings 
within which there are nearby impacts. Those are facts of life, 
and whether it's in Nevada or California, not only do we deal 
with them, but you have to deal with them as well, and it 
distresses me to find that this is a pick and choose sort of an 
organization, depending upon whose ox is being gored about how 
you deal with the fact of life about urban growth.
    In my community we talk about this Ivanpah Airport, and 
there is tremendous objection by your organization to a 5,000-
foot overflight that has probably--and I'm going to look very 
closely to the species in this book or this publication that's 
being presented--may not even be or exist in the proximity of 
the area of the Mojave Reserve. And I want to find that out for 
certain.
    But I think that what you've presented here today says to 
me very clearly that it depends upon whose ox is being gored 
that you're willing to mitigate or willing to find a way to 
allow for urban growth to become a reality and deal with it.
    Mr. Chairman, I yield back to you.
    Mr. Sherwood. This has been a little interesting to me, and 
I'm curious--and it's rhetorical if the Fish and Wildlife 
Service is a little bit mystified at the fervor for which some 
of these questions come, and I'd like to comment on that a 
little bit.
    No one in the world should be more interested in the 
success of the Fish and Wildlife Service than I. I'm an avid 
outdoorsman and a hunter and a fisherman, but I think what 
you're feeling today is quite a little animosity of the Members 
of Congress toward the Fish and Wildlife Service, which is very 
unfortunate. And I think we all need to think about where that 
comes from, and it's my opinion where that comes from is we all 
have some specific area in which we think the Fish and Wildlife 
Service has unnecessarily trampled on the rights of individuals 
in our home district.
    The second issue that I think that is holding this, that is 
keeping this thing going today, is what we feel is an 
unconstitutional taxing of U.S. citizens to fill the coffers of 
the Fish and Wildlife Service. And I think if your Service is 
going to continue to do the work which you obviously want to do 
and are trained to do and we agree you should do, that you need 
to address those issues. And you don't necessarily have to 
address them to me, but I think those are what's on the mind of 
the Members of Congress. And I think that if you don't address 
them in the long run, it will impact your long-term funding.
    Mr. Pombo. Mr. Vento, did you have anything more?
    Mr. Vento. Well, yes. I know we want to get going, and I 
don't want keep members. I appreciate the testimony of the 
witnesses, and I would just say, Mr. Chairman, that--maybe I've 
got to give my colleagues a copy of the book, ``How to Talk 
Minnesotan'' in terms of trying to be understood.
    But I think, it seems to me that, first of all, when this 
Fish and Wildlife Service area was designated in 1976, it was 
limited in terms of it was urban, it was recognized and used 
for education and outdoor interpretive purposes, and that's the 
reason for the addition of the land. It's to provide areas that 
are away from this flight pattern, which, I don't know if you 
were here earlier, Mr. Sherwood, when I said I used to teach 
under this flight pattern, trying to talk to junior high school 
kids. And I guess that's why I developed this small voice I 
have.
    In any case, the issue is then we come back in 1997 and we 
further limit the Fish and Wildlife Service not to be able to 
do this. Now we've got 4(f), and they've got under the law, if 
you read it, it specifically points out that public land--now 
this is one process. Now if you like 4(f) and you think that's 
the process that you would like to put other property owners 
under, well, let's look at it and do it. But this is also a 
restriction on the Fish and Wildlife Service. They've been 
restricted many different ways.
    And so this is one process. I suspect that most private 
property owners wouldn't accept that type of limitation. It 
isn't exclusively used. Actually, we provided for soundproofing 
of homes in the area, and it's going to be something like 
13,000 to 14,000 homes that will be soundproofed in the end by 
using this particular fund, so I think the fund is legally 
established. They are using other revenues here to pay for 
this.
    But, you know, to strip away all the powers in the Fish and 
Wildlife Service--it seems like some of my colleagues are mad 
as hell at you because you were successful in doing what you've 
done. Well, I'm not; I favor this. And when this came up I 
obviously voiced and sent some letters along to this group to 
encourage them to work together, as I think did other members 
of the delegation.
    Now if there are other ways we can do it--I think what you 
all have to face up to is you have tied them down in certain 
ways, but I think that we need to get land managers outside of 
their boundaries. They need to work on trans-boundary issues. 
They have to have a voice in our local communities. I want them 
to do that in my State and in my area, and I want them to do 
it, frankly, in all the other areas in which we have a national 
interest.
    Others are trying to quiet them, and if you think this is 
going to stop me from pursuing the ANWR designation or 
intimidate other members, I think you've got another guess 
coming. We are going to continue. This is a process and a 
partnership that has worked. You ought to be adopting it rather 
than challenging it and trying to intimidate those that are 
pursuing it. I think it follows the law, it's good policy, it 
works out in terms of partnership. I think we'll get a lot more 
done working cooperatively than trying to fight even these 
sorts of logical explanations.
    Mr. Ashe.
    Mr. Ashe. If I could, just for a moment, because I hear 
you, Mr. Sherwood, and you certainly make a valid point. And I 
guess I would use Minnesota Valley as an example, and I know 
that Members of Congress take issue with decisions that are 
made by the Fish and Wildlife Service every day, but we have a 
refuge at Minnesota Valley and we duplicate that all over the 
country and are taking it seriously. And when you see people 
here, like Nelson French; Rick Schultz has gone out of his way 
in Minneapolis, as did his predecessors, to reach out to the 
community and involve the community.
    And when Mr. Young expressed his concern earlier about our 
planned acquisition program there, I would not only not expect 
to see opposition to that, I would expect to see support for 
that in Minneapolis because of the good relationship that Rick 
and Nelson and his organization have built in the community 
there. And the support that you see for this agreement in 
Minneapolis is reflective of that good work, which is not to 
say that we don't have a lot more to do in terms of building 
those types of relationships more and more across the country 
and get out of our refuge boundaries and work more with 
communities, both on refuge management, endangered species, 
conservation, and other things. I think we certainly can do a 
much better job of that and are doing, I think the record 
shows, a better and better job.
    What I would do again is caution--I've heard a couple of 
members implying that the Fish and Wildlife Service is 
inconsistent in its application, and I would disagree with 
that, and I would argue that the Committee does not want us to 
take a one-size-fits-all approach to aircraft noise or species 
impacts because that reduces our flexibility and our ability to 
work with people on the ground to do these kinds of things. And 
so I think that we try to do that judiciously. I realize, 
again, that, you know, legitimate and reasonable people will 
disagree on things like this, about whether we have been.
    Mr. Vento. Well, Mr. Chairman, my time has expired, but I 
was going to point out that they've also--I wanted to try to 
emphasize that through the Conservation Reserve Program and 
other Federal programs, they have been instrumental in 
convincing farm groups on a voluntary basis to set aside land 
in this corridor, as well as the State program. In fact, we had 
a big signing out there with Secretary Glickman and our 
Republican Governor Carlson and many Members. So this has been 
a bipartisan effort to keep this going.
    Obviously, I understand your interest in using it as a 
platform to take a shot at me on some of the issues in Alaska, 
but I think that this is something that's working. If you can 
get this type of agreement, I would commend you to try and do 
it. I know you've got a lot of problems there, and I think they 
are much more than what we have.
    Mr. Pombo. Well, I appreciate the gentleman's comments and 
in terms of whether or not this is going to stop you, nobody 
expects it to. And quite frankly, you get it both ways. You get 
to take shots at us, and you get your airport approved, so you 
get it both ways, so why would you stop?
    The problem is, if they treated you the same way that they 
treat us, your airport would not have been approved and you 
would have gone through years of hassling in order to make it 
work and then maybe you'd see that there's another side to 
this. I don't think there's anything wrong with this airport. I 
think it's fine. I think it's great that we are able to work 
out a way that they can build this airport and extend this 
runway and do everything else.
    The problem is, that's not what we get, and maybe it's 
partially because maybe in my area there's not enough money to 
make it work for you. Maybe we don't put enough money on the 
table to make it work. I don't know, but there is definitely a 
different standard. There is definitely a different approach in 
dealing with Fish and Wildlife in California than what has 
happened with this specific case.
    There is no way in the world that you can tell me that it 
is the same approach, that it is the same even-handed, ``we'll 
work with you, we'll make it work'' approach, because the first 
thing they tell us is ``No.'' And maybe we just don't put 
enough money in.
    The anecdotal story that Ms. Marzulla told about somebody, 
an individual property owner, who has a bald eagle's nest near 
there is told that putting a house on his property is not in 
line with protecting the habitat or not taking that bald eagle 
unless he puts enough money on the table or agrees to let you 
control his property. Whereas, 7,000 flights a month coming out 
of this particular airport is deemed not harassment and not a 
significant take of those bald eagles, even the one that's 
nesting on the power line--or at the power plant. That one 
seems to be doing okay, but if this guy wants to put a modular 
home on his property, all of a sudden, hey; he can't do that. 
He's harassing this bald eagle.
    There's no consistency there. I'd be willing to be you 
though that if he put $20 million on the table, you would not 
only let him put his modular home in there, you would carry it 
in there.
    Mr. Ashe. I think, Mr. Pombo, the issue is never money, the 
issue----
    Mr. Pombo. It is always money.
    Mr. Ashe. The issue is always whether or not efforts are 
being undertaken to mitigate and minimize the effects of a 
particular project.
    Mr. Pombo. The bottom line is it is always money. If a 
developer is big enough, if the timber company is big enough 
that they can put sufficient money on the table or give you 
control of enough of their land, their problem goes away. But 
if it's a small guy with a few hundred acres, or in this case a 
lot, they do not have enough to offer you in order for their 
problem to go away.
    Mr. Ashe. I disagree with that, Mr. Pombo, and I think we--
--
    Mr. Young. Mr. Chairman?
    Mr. Pombo. Well, we can go back and forth on that, but it's 
the case. I can cite you case-after-case-after-case where they 
were not able to put enough on the table. I can give you cases 
in my district where developers who put enough mitigation on 
the table were allowed to build and allowed to go, and ones 
that did not have the size that they were able to afford to do 
it were not allowed to go.
    It always comes down to money or control. If they give you 
enough of their property, then you will let them go. If they 
put enough money on the table, you will let them go. The 
species is secondary. It is a method for delivering power and 
money to the agency. It is the most effective tool that you 
guys have in order to do that.
    Mr. Young. [presiding] Mr. Chairman, I deeply admire your 
comments. I'm going to let you preside more often.
    Just for your information, I've already got an inquiry 
about a ``60 Minutes'' show, so you might really want to think 
about this. If we can document it, you're going to be on prime 
time TV, and we could have lots of fun with it.
    So, I want to thank you and thank the witnesses for being 
here, and I'm going to suggest again--I heard Mr. Sherwood say 
it--there is definitely, as I've said before, Mr. Ashe, your 
agency has got a long way to go. I think you've gone too far to 
the left. You've lost contact with the people. You talk about 
working with people; my people have tried to work. It wasn't 
your fault, Dan. Very frankly, I know whose fault it was. The 
guy's running for President in the year 2000 and got directly 
involved in it, and you have to be a good trooper. But the 
injustice of it was totally wrong.
    I thank the witnesses. The Committee is adjourned.
    [Whereupon, at 2:06 p.m., the Committee adjourned.]
    [Additional material submitted for the record follows.]
  Statement of Dan Ashe, Assistant Director for Refuges and Wildlife, 
  United States Fish and Wildlife Service, Department of the Interior

    I am Dan Ashe, the Assistant Director for Refuges and 
Wildlife of the U.S. Fish and Wildlife Service. I am joined 
today by Mr. Rick Schultz who is the refuge manager of the 
Minnesota Valley National Wildlife Refuge. I appreciate the 
opportunity to provide testimony to the Committee concerning 
the Minnesota Valley National Wildlife Refuge and the agreement 
reached between the Metropolitan Airports Commission, the 
Federal Aviation Administration, and the Service to address the 
impacts of the Twin Cities airport expansion project on the 
refuge.
    The Minnesota Valley NWR was created over 25 years ago as a 
result of local residents' strong interest in restoring and 
protecting fish and wildlife habitats of the Lower Minnesota 
River Valley. These citizens brought together a variety of 
interests . . . environmentalists, industry, transportation, 
elected officials, the general public, and natural resource 
agencies who recognized the value of the natural resources of 
the area. Based on their hard work and dedication, Congress 
passed Public Law 94-466, the Minnesota Valley National 
Wildlife Refuge Act, on October 8, 1976, which established the 
refuge. Unlike most other National Wildlife Refuges, Minnesota 
Valley NWR is somewhat unique in that it is primarily located 
in an urban setting. In this area, fish and wildlife 
populations coexist with over two million Twin Cities 
residents.
    The mission of Minnesota Valley NWR is two-fold . . . (l) 
to restore and protect the important fish, wildlife, and plant 
communities of the lower Minnesota river valley and its 
surrounding watershed . . . and (2) to provide top quality 
wildlife-dependent outdoor recreation and environmental 
education to Twin Cities residents. Since establishment, the 
refuge has acquired 10,000 of its authorized 14,000 acres, it 
has built a state-of-the-art wildlife interpretation and 
visitor center, and it has developed top-quality public use 
programs and facilities.
    In the establishment legislation, Congress acknowledged of 
the refuge's urban setting and the need for the Fish and 
Wildlife Service to work with industry and transportation. 
Section 9 of the Act, entitled ``continued public services'' 
provides that, ``nothing in this Act shall be construed as 
prohibiting or preventing the provision of vital public 
services, including (1) the continuation of commercial 
navigation in the main navigation channel of the Minnesota 
River . . .; (2) construction, improvement, and replacement of 
highways or bridges, whether or not the highway is a federal-
aid highway; or (3) any other activity which the Secretary 
determines to be necessary; if the provision of such services 
is otherwise in accordance with law. Any activity referred to 
in this section shall be carried out so as to minimize the 
disruption of the wildlife and the reduction of recreational 
and scenic values of the area, consistent with economic 
feasibility.''
    Under section 9 of the Act, we interpreted the expansion of 
the Twin Cities International Airport to be a ``vital public 
service.'' Further, under the Wildlife Refuge System 
Improvement Act of 1997, the Fish and Wildlife Service has no 
authority to regulate airspace above a refuge. However, under 
section 4(f) of the 1966 Department of Transportation Act (49 
U.S.C. 303), the Secretary of Transportation may not approve a 
transportation project which requires the use of any publicly-
owned land from a public park, recreation area, or wildlife and 
waterfowl refuge of national, state, or local significance 
unless there are no feasible and prudent alternatives to the 
use of such land and unless the project includes all possible 
planning to minimize harm resulting from the use. This law 
applies to projects that make ``constructive use'' of such 
lands, including through the type of overflights that would 
occur over the refuge in this case.
    It was under this provision of law that we worked with the 
Metropolitan Airports Commission (MAC) and the Federal Aviation 
Administration (FAA) to ensure that disturbance to wildlife and 
wildlife-dependent recreation was minimized. From the onset, it 
was the Service's objective to ensure that this project would 
not result in a net loss of wildlife habitats and that the 
public would not experience a net loss of opportunity to view 
wildlife in its natural setting. We believe those objectives 
have been achieved.
    Let me explain, beginning with some information about the 
Minneapolis-St. Paul International Airport expansion project. 
At the direction of the Minnesota state legislature in 1989, 
the Metropolitan Airports Commission and the Metropolitan 
Council began a process to determine the best alternative to 
meet the region's commercial aviation needs for the next 30 
years. In 1992, FAA and MAC began the public phase of this 
planning process by announcing their intent to prepare an 
environmental impact statement concerning this project. This 
process was known as the dual tract airport planning process 
and at that time, several alternatives were considered 
including expanding the existing airport and the construction 
of a completely new facility in the outlying areas of the Twin 
Cities. In December, 1995, FAA and MAC issued a draft EIS. 
Comments from the public and affected agencies were then 
requested and received.
    In March 1996, MAC and the Metropolitan Council submitted 
their report to the state legislature which contained 
recommendations on the preferred alternative. In response to 
this report, the Minnesota state legislature, in April, 1996, 
selected the expansion of the existing airport as the preferred 
alternative and mandated its implementation.
    Among other items, this alternative called for a new 8,000 
foot north-south runway to be constructed on the west side of 
the existing airport property. I want to emphasize again that 
no part of this new runway will be constructed on either 
existing or future refuge lands. The south end of this new 
runway will be located approximately 1 \1/4\ miles north of the 
refuge. Upon completion, however, the new runway will result in 
at least 8,000 commercial flights per month either departing or 
descending over the refuge at elevations as low as 500 feet. 
This translates into at least one flight over the refuge at 
relatively low elevations every other minute. Clearly, this 
project presented a matter of grave concern for the refuge and 
the Service.
    As we stated earlier, this particular project will not be 
built upon refuge lands, so fish and wildlife habitats will not 
be directly used or harmed from the construction activities. 
Upon a search of the literature, we were unable to determine 
that commercial overflights of wildlife areas would have 
significant detrimental impacts upon fish and wildlife 
populations common to Minnesota Valley NWR. Some information is 
available suggesting disturbance to some species, but the 
literature is inconclusive about whether commercial airport 
operations have any long term effects upon wildlife species 
common to this area.
    What is clear, however, is that the overflights will 
significantly impact ``noise-sensitive'' public use activities 
of the refuge. At Minnesota Valley NWR, the intense aircraft 
noise at frequent intervals will, among other things, 
significantly impede normal conversation of refuge visitors. 
Neither our long-standing and traditional outdoor activities, 
such environmental education with inner city youth, nor birding 
activities, which require listening to bird songs to verify 
visible sightings, will be able to be continued in their 
current location due to the aircraft overflights. This includes 
our youth waterfowl hunting, where we practice and demonstrate 
hunting ethics and proper hunting techniques. Finally, our 
visiting public's ability to view wildlife in its natural 
setting without significant intrusions will also be 
compromised.
    In light of these noise impacts, FAA and MAC correctly 
determined that the construction and operation of the runway 
will result in a ``constructive use'' of refuge lands by the 
airport. This constructive use is harmful to refuge programs 
and activities and is therefore subject to Section 4(f) of the 
1966 Department of Transportation Act.
    As mentioned earlier, the Service position was to ensure 
that this project would not result in a net loss of wildlife 
habitats or a reduction in the public's opportunity to view 
wildlife in its natural setting. Towards these ends, we sent a 
letter to the FAA during the public comment period on their 
draft EIS expressing our concerns that there was not a 
sufficient effort to mitigate these effects of the project on 
the refuge. Consequently, discussions among the parties led us 
to the agreement we now have entered into with the Metropolitan 
Airports Commission and concurred in by FAA. We provided MAC 
and FAA an assessment of what it believed to be acceptable 
compensation for the impacts of the new runway. The five major 
components of this mitigation package included (1) the 
replacement of approximately 4,000 acres of refuge lands 
adversely impacted by noise; (2) the construction of a visitor 
contact and environmental education facility located upstream 
from existing facilities and away from the aircraft noise, (3) 
replacement of other environmental education and interpretive 
facilities; (4) an operations trust fund to underwrite the 
costs of operating two facilities rather than just one; and (5) 
costs associated with the planning and administration of this 
project. Based on our best estimates, we valued the total cost 
of this mitigation package to be approximately $26.9 million.
    Two points should be noted here. First of all, the refuge 
will continue to maintain ownership of the lands to be directly 
impacted by the overflights--these lands will be managed for 
their residual wildlife values. Secondly, the Service agreed to 
a cash settlement with the realization that mitigation for this 
project was quite complex and could not be easily achieved with 
traditional forms of mitigation. We felt that to ensure 
quality, mitigation needed to be accomplished over a period of 
several years and should be accomplished under the direct 
supervision of refuge managers and/or biologists. Through the 
Memorandum of Agreement subsequently signed by the Service and 
MAC, and concurred with by FAA, the Service received assurance 
that the refuge would not experience a net loss of wildlife 
habitat and that the public will not experience a net loss of 
opportunity to view wildlife in its natural setting.
    Nearly 60 percent of the mitigation package will be 
directed towards land acquisition. At this time, the Service 
has not identified specific lands for acquisition nor scheduled 
the construction of replacement facilities. To the degree 
possible, all of these mitigation projects will be determined 
through the comprehensive conservation plan for Minnesota 
Valley NWR. Through this process, which is scheduled for 
completion early in the year 2000, the Service will engage the 
public and request their assistance in identifying additional 
lands and facilities which will offset the impacts of the 
airport expansion project upon Minnesota Valley NWR.
    We should also mention that the staff at Minnesota Valley 
NWR has engaged the public in both the negotiations and 
subsequent discussions concerning the airport expansion 
project. The original citizens group, the Friends of Minnesota 
Valley, has been actively involved and has strongly supported 
the service in these efforts. In addition, several private 
conservation organizations including the Minnesota River Valley 
National Audubon Society chapter, are in support of the 
mitigation and associated memorandum of agreement.
    In closing, we view the impacts of the airport expansion 
project as a regrettable but unavoidable loss to refuge 
programs and activities resulting from actions outside our 
jurisdiction and control. At the same time, we are very pleased 
with the agreement reached between MAC and FAA and we look 
forward to working with these two agencies in the future as we 
address natural resource issues of Minnesota Valley National 
Wildlife Refuge.
    This concludes my prepared remarks and I will be happy to 
respond to any questions you and the members of the Committee 
may have.
                                ------                                


  Statement of Lynne S. Pickard, Manager, Community and Environmental 
  Needs Division, Office of Airport Planning and Programming, Federal 
                        Aviation Administration

    Mr. Chairman and Members of the Committee:
    Good morning. I am Lynne Pickard. the Manager of the 
Community and Environmental Needs Division in the Office of 
Airport Planning and Programming at the Federal Aviation 
Administration (``FAA''). I appreciate the opportunity to 
appear before you this morning to discuss the impact of the 
expansion of the Minneapolis-St. Paul International Airport 
(``MSP Airport'') on the Minnesota Valley National Wildlife 
Refuge (``Refuge''). I am pleased to appear on behalf of the 
FAA Associate Administrator for Airports, Susan Kurland, who is 
speaking at our Southwest Region Partnership Conference in Fort 
Worth. Texas. today.
    I know that this Committee is very interested in exploring 
how the MSP Airport project will affect the Refuge, and what 
steps the FAA has taken to mitigate any adverse environmental 
impacts on the Refuge. My colleagues from the Minneapolis-St. 
Paul Metropolitan Airports Commission (``MAC'') and the United 
States Fish and Wildlife Service (``USFWS'') will discuss other 
perspectives of these impacts, and the work that we have done 
jointly to address these issues.
    In order to discuss fully the FAA's determination of the 
effect of the expansion of the MSP Airport on the Refuge and 
the mitigation for the Refuge, I would first like to explain 
how the Department of Transportation (``DOT'') and the FAA 
interpret and implement Section 4(f) of the DOT Act of 1966. 
codified at 49 U.S.C. Sec. 303. This statute applies to 
decisions by the DOT to approve transportation projects, 
including FAA approval of airport development projects. It 
provides special protection to publicly owned parks, recreation 
areas, and wildlife and waterfowl refuges of national, state, 
or local significance, as well as to land of a historic site 
(whether publicly owned or private) of national, state or local 
significance. Section 4(f) permits the DOT to approve the use 
of these protected resources for a transportation project only 
when the Secretary of Transportation (or his or her delegee) 
has determined (1) that there is no feasible and prudent 
alternative to the use of such land, and (2) the transportation 
project includes all possible planning to minimize harm 
resulting from the use. Section 4(f) is an environmental 
requirement exclusively applicable to transportation projects 
that are subject to approval by the DOT. The FAA is strongly 
committed to ensuring that airport development projects that we 
approve and fund fully meet environmental protection 
requirements.
    As the DOT has implemented Section 4(f), our interpretation 
of the provision is that it applies not only to the acquisition 
of an interest in land but also to situations where serious 
impacts result in ``constructive use'' of land. 
``Constructive'' use may occur when a transportation project is 
constructed near, but not actually on, Section 4(f) lands. 
Constructive use of the land occurs where the proximity of the 
project may impact the land sufficiently to constitute a 
substantial impairment of the activities, features, or 
attributes of the resource. The same protection standards apply 
whether the use of the land is physical or constructive. When a 
transportation project makes constructive use of land, the DOT 
and FAA adhere to the requirements of Section 4(f) to find that 
there is no feasible and prudent alternative and to include all 
possible planning to minimize harm.
    With respect to the MSP Airport project, the MAC proposed a 
new air carrier runway and associated airport development for 
FAA approval. The proposal was mandated by the Minnesota State 
Legislature after nearly seven years of planning studies, and 
includes a new 8,000-foot air carrier runway on the west side 
of the MSP Airport, new taxiways, and associated facilities. 
The purpose of these airport improvements is to improve airport 
capacity, operations, and safety, and reduce airline delays. 
The cost of this project is estimated at $1.8 billion through 
the year 2010.
    Consistent with its duties under the National Environmental 
Policy Act of 1969, the FAA prepared an Environmental Impact 
Statement (``EIS'') and, in conjunction with the EIS, made a 
determination with respect to Section 4(f). The FAA actively 
sought public involvement and input throughout the preparation 
of the EIS, and coordinated with Federal, state, and local 
agencies with environmental jurisdiction and expertise. 
Ultimately, the FAA determined that the MSP Airport expansion 
would require the physical use of one historic site and the 
constructive use of another historic site and of publicly owned 
lands of the Refuge.
    In making the determination of substantial impairment, the 
FAA considered the potential noise impact of the project. The 
FAA determined that noise increases would substantially impair 
the value of some of the publicly owned portions of the Refuge 
near the airport by adversely affecting their use for outdoor 
educational and environmental interpretive activities such as 
school field trips and scouting visits, as well as wildlife 
recreational activities such as nature walks, bird-watching and 
fishing. In summary, the noise impact of the new runway was 
determined to substantially impair the use of portions of the 
Refuge for certain human activities that currently take place 
within those areas. According to FAA's analysis, a little over 
a thousand acres of Refuge under USFWS ownership would be 
adversely affected by an increase in noise levels. In total, 
the Refuge comprises over 9,000 acres, interspersed with an 
additional 6,900 acres of state and locally owned recreation 
areas, in seven discontinuous management units that extend 34 
miles and are part of the 80-mile long Minnesota Valley 
National Wildlife Refuge, Recreation Area, and State Trail.
    The substantial impairment determination and resulting 
constructive use determination were based on the public use 
impacts resulting from increased noise levels, and not on 
impacts to the Refuge's ecological integrity or wildlife 
resources. The Department of the Interior was consulted on the 
potential jeopardy to endangered or threatened species and 
critical habitat and they determined that there would be no 
adverse effects. Based on studies of wildlife compatibility 
with aircraft noise, the FAA believes that aircraft noise would 
not substantially diminish wildlife habitat or resources in the 
Refuge, although the FAA recognizes in its evaluation that it 
is difficult to quantify noise impacts to wildlife in absolute 
terms. The FAA's determination in this case is reinforced by 
the high degree of waterfowl habituation observed at areas 
adjacent to existing runways at the MSP Airport. It should also 
be noted that the portion of the Refuge in close proximity to 
the airport is located near the urban core of the Twin Cities 
region and is adjacent to significant rail and road 
transportation corridors. These transportation facilities 
existed at the time of the establishment of the Refuge and have 
always affected the noise environment. Monitored ambient noise 
levels in the Refuge in the general vicinity of the airport are 
comparable to levels typically encountered in suburban 
residential to noisy urban residential areas.
    Having made a Section 4(f) constructive use determination, 
the FAA determined through its review of the airport 
development proposal in the EIS and Section 4(f) documentation 
that there was no feasible and prudent alternative to the use 
of the resource. Alternatives that were examined and rejected 
include new sites for an airport, alternative expansion 
concepts for the MSP Airport, high-speed intercity rail, a 
remote runway concept linked to the MSP Airport by high-speed 
transit, the shifting of some aviation users to supplemental 
airports in the region, alternative flight procedures to avoid 
the Refuge, and the alternative of taking no action at all. As 
I have mentioned, none of these alternatives were feasible and 
prudent.
    The final Section 4(f) requirement is to include all 
possible planning to minimize harm resulting from the use of 
the Section 4(f) resource. As is our practice, the FAA 
coordinated with and gave deference to the USFWS, the agency 
with jurisdiction over the Section 4(f) resource when 
determining appropriate measures to minimize harm. The 
resulting mitigation plan reflected in the agreement between 
the USFWS and MAC, with FAA as a concurring party, was 
developed during detailed consultations among the three parties 
over a period of two years.
    The agreement, referred to as a Memorandum of Agreement 
(``MOA''), provides a specific program to satisfy all possible 
planning to minimize harm to the Refuge from the airport 
development project. It provides for monetary compensation to 
be paid by the MAC to the USFWS to offset the unavoidable 
adverse airport project impacts to the Refuge. No FAA Airport 
Improvement Program dollars will be used to compensate the 
Refuge. The MOA provides that the compensation will be used to 
provide the Refuge with replacement land of habitat quality 
equal to that impacted by the airport project and to provide 
for the construction of ponds, hiking trails, and other 
improvements to replace comparable Refuge components adversely 
impacted as a result of the airport project. The MOA recognizes 
that, in exchange for compensation, heights of structures on 
Refuge property near the airport will be limited to be 
compatible with aircraft operations, and that aircraft shall 
have the right of flight and to make noise over the Refuge 
property that is the subject of compensation. Finally, the MOA 
acknowledges that USFWS will continue to appropriately manage 
Refuge lands that are the subject of the agreement--that is, 
the Refuge lands subject to constructive use because of 
aircraft noise will still continue to function as a diminished 
value Refuge area under USFWS management.
    The MOA recognizes that the amount of monetary compensation 
will be based on appraised values in conformance with 
applicable appraisal standards and regulations. The appraisal 
process had not been completed at the time of signature of the 
MOA, and accordingly, there is flexible language in the MOA 
regarding the $20 million appraised value as of that time. The 
$20 million figure is regarded as the ``floor'' of a final 
appraisal amount, with amounts to be determined for realignment 
compensation and increased operational costs. The appraisal has 
recently been completed, and FAA's review of the appraisal is 
being finalized.
    Monetary compensation mitigation plans are not 
unprecedented in Section 4(f) analyses. The provision of funds 
by an airport proprietor, such as the MAC, needing to use a 
Section 4(f) resource to the agency owning the resource, in 
this case, the USFWS, so that a comparable replacement resource 
can be provided is one of several accepted means of minimizing 
harm under Section 4(f). In the past, compensation has been 
used to mitigate adverse environmental impacts where 
replacement of land and facilities and/or design measures are 
warranted. These mitigation measures are recognized in 
published FAA environmental guidance. The FAA has long 
recognized that environmental mitigation associated with an 
airport capital development project qualifies as a capital cost 
of the airport. The association between environmental 
mitigation and the airport capital development project is 
particularly strong when the mitigation relates to Section 4(f) 
because the statutory requirement is for the project to include 
all possible planning to minimize harm.
    The need for Section 4(f) mitigation plans is not a 
frequent occurrence. Indeed, this is consistent with the 
purpose of the statute: to protect and preserve Section 4(f) 
resources and to set a high standard for using such resources 
for transportation projects. Simply put, the FAA has no need to 
make many Section 4(f) determinations because the agency tries 
not to use Section 4(f) resources. Furthermore, most FAA 
Section 4(f) determinations and mitigations are for uses of 
urban parks. e.g., local parks, ball fields, and publicly used 
school playgrounds, because these tend to be the types of 
Section 4(f) resources in close proximity to airports.
    However, there are examples of other Section 4(f) 
situations involving airport development projects. The Toledo 
Express Airport, in a Memorandum of Understanding with a local 
park district, agreed to provide land on which to relocate a 
campground that was used by an airport project. Near 
Cincinnati, a County-owned recreational field was relocated as 
a result of a runway extension: the airport proprietor agreed 
to replace the field. Lambert St. Louis Airport will fund the 
replacement of several urban parks impacted by a recently 
approved new runway. There are also instances of the 
replacement of softball fields affected by airport development, 
and effects on historic property that have been mitigated with 
the assistance of funds from the airport proprietor.
    At this point, it is worthwhile to note that the Refuge 
compensation plan does not stand alone as a solution to address 
adverse environmental impacts of the airport development. 
Rather, it is only a portion of an overall plan. The scope of 
the MSP Airport expansion project is enormous, with the Refuge 
accounting for only a portion of potentially affected lands. To 
address the entire expansion project, the FAA and the MAC 
developed an extensive mitigation plan that needed to account 
for a variety of factors. Community noise mitigation and 
acquisition will cost many times the amount needed to mitigate 
the Refuge. The MSP airport project as a whole encompasses a 
range of concerns, from the environmental to the economic, from 
the significance of private use and enjoyment of park lands to 
the importance of the public benefits of a safe and modern 
airport.
    In this case, the MAC, the USFWS, and the FAA all agreed 
that this compensation plan and the other terms in the MOA 
would be the best response to the adverse effects of the MSP 
Airport project. The monetary component of the overall plan 
will provide the Refuge with replacement land of habitat 
quality equal to that which will be affected by the project. 
Moreover, it will provide for the construction of ponds, hiking 
trails and trail markers, and other necessary site improvements 
or replacements.
    Mr. Chairman and Members of the Committee, the FAA takes 
its responsibility to the environment and the public very 
seriously. In formulating the Section 4(f) mitigation plan for 
this project, the relevant agencies considered other 
alternatives that might avoid affecting the Refuge. Each 
alternative considered involved evaluations of potential 
Section 4(f) affected lands. These other alternatives are not 
considered feasible and prudent under Section 4(f) standards.
    Mr. Chairman, I appreciate the opportunity to appear before 
you this morning to discuss an issue that I know is of great 
importance to this Committee. Improvements to airport capacity 
and safety can be achieved in an environmentally responsible 
manner. We at the FAA believe the compensation plan and 
mitigation steps for the MSP Airport are an example of how this 
balance can be achieved.
    Thank you for the opportunity to testify this morning. On 
behalf of Administrator Jane Garvey and Associate Administrator 
Susan Kurland, I would like to say that we appreciate your 
interest in the MSP Airport expansion project, and look forward 
to any dialogue with you and the Members of the Committee that 
may help us improve our work on environmental issues. I would 
be pleased to answer any questions that you may have.
                                ------                                


   Statement of Nelson T. French, Executive Director, Friends of the 
                            Minnesota Valley

    Mr. Chairman and members of the Committee, I am Nelson 
French, Executive Director of the Friends of the Minnesota 
Valley. It is indeed an honor to be invited to appear before 
you today to speak with you about the Minnesota Valley National 
Wildlife Refuge and the recently concluded discussions between 
the USFWS, Federal Aviation Administration and Metropolitan 
Airports Commission regarding the mitigation of impacts 
associated with the expansion of Minneapolis-St. Paul 
International Airport.
    The Friends of the Minnesota Valley was incorporated June 
21, 1982 as a non-profit organization and is one of many 
similar organizations cooperating with the USFWS in local 
communities across the country. Many of you who have refuges in 
your districts are likely familiar with your Friends 
organizations.
    The Friends envision a healthy Lower Minnesota River 
Watershed where an informed citizenry takes personal and group 
responsibility to ensure that natural ecological systems and 
human economic and social systems coexist in a fashion 
sustainable into the future. The mission of the Friends is 
supporting conservation and management of the natural and 
cultural resources of the Lower Minnesota River Watershed, and 
promoting environmental awareness.
    Before we get to today's topic, I would like to share with 
you a bit about our history and the way in which we have chosen 
to work within our community as I believe it is relevant to the 
issue being discussed today.

History

    The dream of having a national wildlife refuge in the 
Minnesota Valley was developed in the early 1970's by a group 
of citizens called the Burnsville Environmental Council. 
Frustrated with their failure to stop the expansion of land 
fill operations in the Burnsville portion of the Minnesota 
River floodplain they decided that a more comprehensive 
approach was necessary to protect the river bottoms in their 
community. As a result, in 1974, the Burnsville group produced 
a 24 page booklet that proposed a Minnesota River National 
Wildlife and Recreation Area. The Council sent the booklet to 
everyone from local city councils to the President of the 
United States. Fortunately, then Congressman Bill Frenzel 
responded by asking the Department of Interior to investigate 
the feasibility of establishing a national wildlife refuge in 
the valley. The result was the development, in 1975, of a 
proposal for the Minnesota Valley National Wildlife Refuge.
    The Burnsville Environmental Council reached out across the 
river and asked the Bloomington Natural Resources Commission 
for help. Together they formed the Lower Minnesota River Valley 
Citizen's Committee--now known as Friends of the Minnesota 
Valley.
    The Lower Minnesota River Valley Citizen's Committee kept 
up the contacts between the volunteers and invited people to 
share in the vision of the refuge proposal along a 34 mile long 
stretch of the Minnesota River. Countless presentations were 
made to communities and community groups up and down the river 
for the purpose of educating people about the project and 
seeking endorsements and working out consensus on issues of 
concern within the community. After this engaging process, the 
citizens committee was able to get support and resources from 
more than 40 private groups including: local and national 
conservation organizations; chambers of commerce; corporations; 
the Jaycees; State agencies; the Minnesota Legislature; and 
local units of government. Through this process many issues 
were worked out between stakeholders who had differing views on 
the refuge proposal--and consensus was reached.
    On July 11, 1975, then Senator Walter Mondale and Hubert 
Humphrey introduced a bill to establish the Minnesota Valley 
National Wildlife Refuge. Congressman Oberstar, along with 
former Congressmen Frenzel and Hagedorn, followed by 
introducing a companion bill in the House of Representatives. 
By late September, 1976, both houses of Congress had passed the 
authorizing legislation and President Ford signed the bill 
creating the Minnesota Valley National Wildlife Refuge on 
October 9, 1976.
    The Minnesota Valley National Wildlife Refuge is a 
magnificent urban wildlife refuge that owes it's existence to 
the Friends of the Minnesota Valley and its precursor citizen 
committee and a community with the willingness to work together 
to achieve common goals.
    The Friends of the Minnesota Valley did not stop supporting 
conservation efforts in the Lower Minnesota River Watershed 
with the establishment of the refuge, however. We knew that our 
work had only just begun. Since establishment we have 
successfully worked to obtain funds to acquire refuge lands, 
construct the Visitor and Education Center, and provide an 
excellent environmental educational resource for the twin 
cities' public.
    While continuing to work on the basic non-profit 
organizational survival needs of fund raising and membership, 
the Friends have helped enlist volunteers, enroll Refuge 
neighbors in the private landowner registry program, coordinate 
efforts for water quality monitoring, communicate with 
residents of the watershed and the Twin Cities, and foster 
partnerships to improve the Lower Minnesota River Watershed and 
ecosystem.

The Current Situation

    In February, 1998, the Friends of the Minnesota Valley 
began working with the Metropolitan Airports Commission and 
staff to see if we could develop an agreed upon solution to the 
potentially contentious issue of expansion of the MSP airport 
and its impacts on the public uses of the Minnesota Valley 
National Wildlife Refuge. We knew the 1996 decision by the 
Minnesota Legislature to expand the MSP International Airport 
and route air traffic over the Minnesota Valley National 
Wildlife Refuge had to be implemented. After extensive review 
of the situation, our organization, in concert with 16 local 
and national conservation and community organizations, 
supported the concept of mitigating the impacts associated with 
the expansion of Minneapolis/St. Paul International Airport.
    In late May, 1998, the Friends of the Minnesota Valley, 
Friends of the Mississippi River, Fort Snelling State Park 
Association, Izaak Walton League-MN Division, Minnesota River 
Valley Audubon Chapter and Minnesota Audubon Council co-
sponsored a public open house and invited representatives from 
the Federal Aviation Administration, Metropolitan Airports 
Commission, and U.S. Fish & Wildlife Service to brief the 
public on the impacts to the Refuge from the airport expansion. 
This was the first time that these three agencies were together 
in front of the public addressing the issues associated with 
the airport expansion and the Minnesota Valley National 
Wildlife Refuge. This event was well attended and a lot of good 
information was shared between the agencies and between the 
agencies and interested citizens. An outcome of this meeting 
was significant progress towards the necessary development of 
community consensus on this issue.
    The Friends of the Minnesota Valley regrets the loss to the 
public of a significant nationally recognized natural resource 
due to the expansion of MSP International Airport--the Black 
Dog Lake and Long Meadow Lake Units of the Refuge will 
experience significant noise intrusion and will no longer be 
available for certain environmental education and natural 
resource observation activities.
    The Friends of the Minnesota Valley recognizes that MSP 
International Airport must expand to meet the needs of the 
flying public and has contended that the expansion of the 
airport at its present location will likely result in less 
overall environmental and natural resource damage in Minnesota 
than would construction of a new airport.
    The Friends of the Minnesota Valley has stressed that the 
loss of natural resource value to in the Minnesota Valley 
National Wildlife Refuge resulting from the new runway 
construction and use must be compensated--thereby placing these 
values on the balance sheet. The proposed agreement of not less 
than $20,000,000 with the likelihood that total compensation 
will be greater as actual replacement costs and operational 
costs are factored in is acceptable compensation for this loss 
to the community.
    The Friends of the Minnesota Valley applauds the 
Metropolitan Airports Commission, Federal Aviation 
Administration and USFWS for recognizing the serious nature of 
the impacts to the Minnesota Valley National Wildlife Refuge 
and deciding to compensate for the losses.
    The Friends of the Minnesota Valley views this as a step in 
engaging the Metropolitan Airports Commission as a partner in 
conservation in the Lower Minnesota River Watershed, 
recognizing that they too are a resident of the watershed and 
must take personal group responsibility to insure that the 
principles of sustainable development are achieved.
    We look forward to working with the USFWS and the community 
to develop the National Wildlife Refuge Enhancement Act of 1997 
required Comprehensive Conservation Plan for the Minnesota 
Valley National Wildlife Refuge and mitigate the impacts 
through related actions in this plan.

Response to Question From Committee

    In your letter to us you had asked the Friends to comment 
on this question: ``The Committee would appreciate your 
addressing the issue of how the Fish and Wildlife Service 
agreement for compensation will impact the rights of private 
property owners to receive compensation for the constructive 
use of their land in connection with the protection of 
wildlife.''
    It is our understanding that private wildlife lands are not 
eligible for review under the constructive use provisions of 
Section 4(f) of the 1966 Department of Transportation Act (49 
U.S.C. 303). It is our understanding that the agreement between 
the USFWS and the Metropolitan Airports Commission will have no 
impact on the rights of private property landowners to receive 
compensation for their land through a fee title acquisition 
transaction in connection with the protection of wildlife.
    This concludes my prepared remarks. Thank you for the 
opportunity to be with you today. Mr. Chairman, I will be happy 
to respond to any questions you and the members of the 
Committee may have.


[GRAPHIC] [TIFF OMITTED] 54564.003

[GRAPHIC] [TIFF OMITTED] 54564.004

[GRAPHIC] [TIFF OMITTED] 54564.005

[GRAPHIC] [TIFF OMITTED] 54564.006

[GRAPHIC] [TIFF OMITTED] 54564.007

[GRAPHIC] [TIFF OMITTED] 54564.008

[GRAPHIC] [TIFF OMITTED] 54564.009

[GRAPHIC] [TIFF OMITTED] 54564.010

[GRAPHIC] [TIFF OMITTED] 54564.011

[GRAPHIC] [TIFF OMITTED] 54564.012

[GRAPHIC] [TIFF OMITTED] 54564.013

[GRAPHIC] [TIFF OMITTED] 54564.014

[GRAPHIC] [TIFF OMITTED] 54564.015

[GRAPHIC] [TIFF OMITTED] 54564.016

[GRAPHIC] [TIFF OMITTED] 54564.017

[GRAPHIC] [TIFF OMITTED] 54564.018

[GRAPHIC] [TIFF OMITTED] 54564.019

[GRAPHIC] [TIFF OMITTED] 54564.020

[GRAPHIC] [TIFF OMITTED] 54564.021

[GRAPHIC] [TIFF OMITTED] 54564.022

[GRAPHIC] [TIFF OMITTED] 54564.023

[GRAPHIC] [TIFF OMITTED] 54564.024

[GRAPHIC] [TIFF OMITTED] 54564.025

[GRAPHIC] [TIFF OMITTED] 54564.026

[GRAPHIC] [TIFF OMITTED] 54564.027

[GRAPHIC] [TIFF OMITTED] 54564.028

[GRAPHIC] [TIFF OMITTED] 54564.029

[GRAPHIC] [TIFF OMITTED] 54564.030

[GRAPHIC] [TIFF OMITTED] 54564.031

[GRAPHIC] [TIFF OMITTED] 54564.032

[GRAPHIC] [TIFF OMITTED] 54564.033

[GRAPHIC] [TIFF OMITTED] 54564.034

[GRAPHIC] [TIFF OMITTED] 54564.035

[GRAPHIC] [TIFF OMITTED] 54564.036

[GRAPHIC] [TIFF OMITTED] 54564.037

[GRAPHIC] [TIFF OMITTED] 54564.038

[GRAPHIC] [TIFF OMITTED] 54564.039

[GRAPHIC] [TIFF OMITTED] 54564.040

[GRAPHIC] [TIFF OMITTED] 54564.041

[GRAPHIC] [TIFF OMITTED] 54564.042

[GRAPHIC] [TIFF OMITTED] 54564.043

[GRAPHIC] [TIFF OMITTED] 54564.044

[GRAPHIC] [TIFF OMITTED] 54564.045

[GRAPHIC] [TIFF OMITTED] 54564.046

[GRAPHIC] [TIFF OMITTED] 54564.047

[GRAPHIC] [TIFF OMITTED] 54564.048

[GRAPHIC] [TIFF OMITTED] 54564.049

[GRAPHIC] [TIFF OMITTED] 54564.050

[GRAPHIC] [TIFF OMITTED] 54564.051

[GRAPHIC] [TIFF OMITTED] 54564.052

[GRAPHIC] [TIFF OMITTED] 54564.053

[GRAPHIC] [TIFF OMITTED] 54564.054

[GRAPHIC] [TIFF OMITTED] 54564.055

[GRAPHIC] [TIFF OMITTED] 54564.056

[GRAPHIC] [TIFF OMITTED] 54564.057

[GRAPHIC] [TIFF OMITTED] 54564.058

[GRAPHIC] [TIFF OMITTED] 54564.059

[GRAPHIC] [TIFF OMITTED] 54564.060

[GRAPHIC] [TIFF OMITTED] 54564.061

[GRAPHIC] [TIFF OMITTED] 54564.062

[GRAPHIC] [TIFF OMITTED] 54564.063

[GRAPHIC] [TIFF OMITTED] 54564.064

[GRAPHIC] [TIFF OMITTED] 54564.065


</pre></body></html>
